<html>
<title> - COMMUNITY RESPONSES TO GUN VIOLENCE IN OUR CITIES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
                  COMMUNITY RESPONSES TO GUN VIOLENCE 
                             IN OUR CITIES

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 26, 2019

                               __________

                           Serial No. 116-54 

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         
         


      Available via the World Wide Web: http://judiciary.house.gov
      
      
      
      
                           ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
39-718               WASHINGTON : 2021       
      
      
      
      
                       COMMITTEE ON THE JUDICIARY

                   JERROLD NADLER, New York, Chairman
ZOE LOFGREN, California              DOUG COLLINS, Georgia,
SHEILA JACKSON LEE, Texas              Ranking Member
STEVE COHEN, Tennessee               F. JAMES SENSENBRENNER, Jr.,
HENRY C. ``HANK'' JOHNSON, Jr.,        Wisconsin
    Georgia                          STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          LOUIE GOHMERT, Texas
KAREN BASS, California               JIM JORDAN, Ohio
CEDRIC L. RICHMOND, Louisiana        KEN BUCK, Colorado
HAKEEM S. JEFFRIES, New York         JOHN RATCLIFFE, Texas
DAVID N. CICILLINE, Rhode Island     MARTHA ROBY, Alabama
ERIC SWALWELL, California            MATT GAETZ, Florida
TED LIEU, California                 MIKE JOHNSON, Louisiana
JAMIE RASKIN, Maryland               ANDY BIGGS, Arizona
PRAMILA JAYAPAL, Washington          TOM McCCLINTOCK, California
VAL BUTLER DEMINGS, Florida          DEBBIE LESKO, Arizona
J. LUIS CORREA, California           GUY RESCHENTHALER, Pennsylvania
MARY GAY SCANLON, Pennsylvania,      BEN CLINE, Virginia
  Vice-Chair                         KELLY ARMSTRONG, North Dakota
SYLVIA R. GARCIA, Texas              W. GREGORY STEUBE, Florida
JOE NEGUSE, Colorado
LUCY McBATH, Georgia
GREG STANTON, Arizona
MADELEINE DEAN, Pennsylvania
DEBBIE MUCARSEL-POWELL, Florida
VERONICA ESCOBAR, Texas
        Perry Apelbaum, Majority Staff Director & Chief of Staff
                Brendan Belair, Minority Staff Director

                                 ------                                

        SUBCOMMITTEE ON CRIME, TERRORISM, AND HOMELAND SECURITY

                     KAREN BASS, California, Chair
                    VAL DEMINGS, Florida, Vice-Chair
SHEILA JACKSON LEE, Texas            JOHN RATCLIFFE, Texas,
LUCY McBATH, Georgia                   Ranking Member
TED DEUTCH, Florida                  F. JAMES SENSENBRENNER, Jr.,
CEDRIC RICHMOND, Louisiana             Wisconsin
HAKEEM JEFFRIES, New York            STEVE CHABOT, Ohio
DAVID N. CICILLINE, Rhode Island     LOUIE GOHMERT, Texas
TED LIEU, California                 TOM McCLINTOCK, California
MADELEINE DEAN, Pennsylvania         DEBBIE LESKO, Arizona
DEBBIE MUCARSEL-POWELL, Florida      GUY RESCHENTHALER, Pennsylvania
STEVEN COHEN, Tennessee              BEN CLINE, Virginia
                                     W. GREGORY STEUBE, Florida
                   Joe Graupensperger, Chief Counsel
                    Jason Cervenak, Minority Counsel
                    
                            C O N T E N T S

                              ----------                              

                           SEPTEMBER 26, 2019
                           OPENING STATEMENTS

                                                                   Page
The Honorable Karen Bass, a Representative in Congress from the 
  State of California, and Chair of the Subcommittee on Crime, 
  Terrorism, and Homeland Security
      Oral Testimony.............................................     1
The Honorable John Ratcliffe, a Representative in Congress from 
  the State of Texas, and Ranking Member of the Subcommittee on 
  Crime, Terrorism, and Homeland Security
      Oral Testimony.............................................     4
The Honorable Jerrold Nadler, a Representative in Congress from 
  the State of New York, and Chairman, of the House, Committee on 
  the Judiciary
      Oral Testimony.............................................     5
      Prepared Statement.........................................

                               WITNESSES

The Honorable William Lacy Clay, U.S. House of Representatives, 
  Member of Congress, Missouri 1st District
      Oral Testimony.............................................     6
      Prepared Statement.........................................     9
The Honorable Robin Kelly, U.S. House of Representatives, Member 
  of Congress, Illinois 2nd District
      Oral Testimony.............................................    12
      Prepared Statement.........................................    17
Eddie Bocanegra, Senior Director, Heartland Alliance
      Oral Testimony.............................................    23
      Prepared Statement.........................................    26
Reggie Moore, Director, City of Milwaukee Health Department, 
  Office of Violence Prevention
      Oral Testimony.............................................    30
      Prepared Statement.........................................    33
Maj Toure, Founder, Black Guns Matter
      Oral Testimony.............................................    56
      Prepared Statement.........................................    59
Amber Goodwin, Executive Director, Community Justice Action Fund
      Oral Testimony.............................................    62
      Prepared Statement.........................................    64

          STATEMENTS, LETTERS, MATERIALS, ARTICLES SUBMITTED 
                             FOR THE RECORD

Statement of Mayor Lori E. Lightfoot, City of Chicago submitted 
  by Representative Robin Kelly, a Member Congress of the State 
  of Illinois, prepared for the record...........................    12
Materials submitted by Representative Steve Cohen from the State 
  of Tennessee, a Member of the Subcommittee on Crime, Terrorism, 
  and Homeland Security for the record...........................    88

                                APPENDIX

Cycles of Violence, A Journal Sentinel Special Report, If 
  violence spreads like a disease, it can be interrupted. How a 
  new team in Milwaukee is trying to stop one shooting leading to 
  another........................................................    99
Los Angeles Times Op-Ed: How do we reduce gun violence? By 
  treating it like a disease written by Michelle A. Williams and 
  Mary T. Bassett................................................   109
ProPublica, How the Gun Control Debate Ignores Black Lives by 
  Lois Beckett...................................................   113
USA Today--El Paso, Dayton, Chicago: Media doesn't treat all gun 
  violence the same..............................................   130
The New York Times, Confronting a Plague of Violence, a 
  Documentary by Steve James.....................................   134
The New York Times, When Cities Try to Limit Guns, State Laws Bar 
  the Way........................................................   138
The Trace, How We Fix This Gun Reform is on the Agenda. But 
  Victims of Color Aren't........................................   141


           COMMUNITY RESPONSES TO GUN VIOLENCE IN OUR CITIES

                              ----------                              


                      THURSDAY, SEPTEMBER 26, 2019

                        House of Representatives

        Subcommittee on Crime, Terrorism, and Homeland Security

                       Committee on the Judiciary

                             Washington, DC

    The subcommittee met, pursuant to call, at 12:09 p.m., in 
Room 2237, Rayburn House Office Building, Hon. Karen Bass 
[chairman of the subcommittee] presiding.
    Present: Representatives Bass, Nadler, Jackson Lee, 
Demings, McBath, Deutch, Jeffries, Lieu, Dean, Mucarsel-Powell, 
Cohen, Ratcliffe, Gohmert, McClintock, Cline, and Steube.
    Staff Present: Joe Graupensperger, Chief Counsel; Monalisa 
Dugue, Deputy Chief Counsel; Veronica Eligan, Professional 
Staff Member; Tamara Kassabian, Counsel (Detailee); Jason 
Cervenak, Minority Chief Counsel; and Andrea Woodard, Minority 
Professional Staff.
    Ms. Bass. The subcommittee will come to order.
    Without objection, the chair is authorized to declare 
recesses of the subcommittee at any time.
    We welcome everyone to this afternoon's hearing on 
Community Responses to Gun Violence in Our Cities.
    I will now recognize myself for an opening statement.
    I am pleased that the Subcommittee on Crime, Terrorism, and 
Homeland Security is holding this very important hearing on an 
issue that is too often overlooked in our national conversation 
about gun violence--the systemic, tragic, and daily experience 
of gun violence in our communities.
    Yesterday, the Judiciary Committee conducted an important 
hearing on the deadly use of assault weapons in this country. 
Some have asserted in that hearing, and as an NRA talking point 
against strengthening gun laws, that the continued gun violence 
in our cities like Chicago that have strong gun laws indicates 
that these laws are ineffective.
    That is not correct. We know that lax gun laws in other 
jurisdictions allow those intent on evading gun laws to obtain 
guns and traffic them to cities that have enacted strong gun 
laws. So, today, we will focus on the epidemic of gun violence 
in many of our cities, the root causes of this violence and the 
trauma that results, and the various responses being developed 
by individuals in these communities and the resources needed to 
support these efforts.
    Our cities disproportionately suffer the impact of gun 
violence, with the impact particularly felt by communities of 
color. Too many lives are taken, too many people are injured, 
and too many families of victims suffer. It is imperative that 
we apply a comprehensive approach to addressing gun violence in 
this country, which should include an appropriate focus on 
these communities that experience concentrated levels of 
shootings.
    Unfortunately, communities have developed solutions, but 
financial assistance to successful strategies is often not 
available or slow and inefficient when it is. This lack of 
financial and other assistance is especially evident in 
African-American and Latino communities.
    Communities often have effective ways to address community-
based gun violence. They need the resources. In order to have 
an effective, comprehensive approach, we must change the way we 
discuss and address these issues and change the attitudes and 
behaviors of perpetrators, educators, researchers, advocates, 
and including us, lawmakers.
    So, today, we start this conversation. Too often 
communities with habitual occurrences of gun violence receive 
attention for the acts of the violence, but little to no 
attention as to why a high concentration of violence permeates 
these communities. Instead, we too often do not take the time 
to look behind the violence and find and support appropriate 
responses, and we do not take the time to listen to the people 
in those communities who are working where they live and work 
to develop solutions that are rooted in their everyday 
experiences.
    Consequently, these communities are often not factored into 
the larger conversation around responses to gun violence. We 
need to examine what are the root causes of violence? What are 
examples of successful community-based responses to gun 
violence?
    Understanding the root causes really doesn't take rocket 
science, and I want to take a few minutes to describe this. If 
you look at communities where you have concentrated violence, 
you also have a number of other factors. You have the 
communities that suffer from the cycle of incarceration and 
people being released from incarceration who are then locked 
out of a legal economy. And then people will survive by any 
means necessary.
    If you don't allow people to work because they are formerly 
incarcerated, our communities do not have job opportunities, 
then don't be surprised when those same communities are 
impacted by drug trafficking. Don't be surprised when those 
communities have a high concentration of gang violence.
    A lot of this information is knowable, but attention is not 
given to it. So those communities then are viewed as 
communities that have a lot of problems and they are incapable 
of solving them, or these communities only care about gun 
violence when it involves a police officer and an individual 
and that these communities don't care about violence that 
happens inside the community.
    Having lived and worked in these communities most of my 
life, I know that this is not true. One thing that was always 
extremely frustrating to us was we would work day in and day 
out to prevent violence, have levels of success, but it never 
received any attention. What received attention was when the 
violence took place.
    So I want to give you one example of a community in Los 
Angeles where we set out to prevent homicides from taking place 
in one summer. It was an area where there were 300 apartment 
buildings. It wasn't public housing, but it kind of functioned 
that way, called Baldwin Village, in my congressional district. 
And we invested concentrated resources in this housing 
development.
    We hired young people during the summer. And so when we 
think of cutting funding to programs like Summer Jobs, we don't 
connect it to violence prevention, and we should. We hired 
people who were former gang members, and we essentially 
assigned them the task of mediating conflicts. They were on the 
ground. They worked with the people in the neighborhoods.
    When there was a conflict that was developing, because they 
were OGs, or original gangsters--they were out of the gang 
life, but they still had credibility--instead of sending in 
police forces, we sent in people from the community, and they 
were able to mitigate that violence. And we went--in an area 
that was known for homicides, we went an entire summer without 
homicides.
    The other thing about shootings when they take place is 
they tend to be concentrated on certain days of the week and 
certain hours. And so during those hours and during those days 
was when we had the concentrated resources and made sure that 
young people had activities. One of the things that 
distinguishes areas where there is concentrated violence where 
they are areas that are low income is that they don't have the 
resources to involve youth in positive activities or employment 
opportunities for young people.
    And so I look forward to today where we can hear about 
examples of root causes, but also solutions. So I want to 
recognize that many of my colleagues have taken a strong 
interest in these issues and are making proposals to address 
gun violence in our communities.
    Representative Dwight Evans, who represents portions of 
Philadelphia, has one such proposal, and I would like to read a 
brief statement from him.
    ``Gun violence is a public health issue. Just this year 
alone, we have seen more than 10,000 deaths and more than 
40,000 gun-related incidences. We have run out of excuses to 
not act on this. These are people's lives we are talking about, 
and while we move forward with long-overdue discussions on gun 
control legislation, we cannot forget the victims of gun 
violence, who already deal with the daily consequences of 
inaction.
    ``The Resources for Victims of Gun Violence Act, which I 
introduced with Senator Bob Casey, would establish an 
interagency advisory council to connect these victims with 
critical information, programs, and benefits they need. I urge 
all Members to join us in supporting this common sense 
legislation.''
    With this in mind, and as we discuss this important set of 
issues related to gun violence in our cities, I look forward to 
hearing from our witnesses about other remarkable programs that 
are successfully addressing gun violence in communities 
throughout this country and which urgently require Congress' 
support.
    It is now my pleasure to recognize the ranking member of 
the subcommittee, the gentleman from Texas, Mr. Ratcliffe, for 
his opening statement.
    Mr. Ratcliffe. Thank you, Madam Chair.
    Thanks to the witnesses who are here today.
    This is one of several hearings the majority has held on 
the issue of gun violence. Usually after we examine a topic two 
or three or four times, we should be able to find common ground 
and build a consensus on what we can do to address the issue. 
Unfortunately, that is a far cry from what we have seen this 
Congress.
    A lot of my colleagues have said that gun violence is a 
public health crisis and suggested that their gun control 
proposals are the only way to save lives. We have got to be 
honest with ourselves. We have got to be honest with the 
American people about what the data shows.
    According to the 2019 report from Every Town for Gun 
Safety, gun homicides and assaults are concentrated in cities. 
Thirty-one percent of gun murders occurred in the 50 cities 
with the highest murder rates, though only 6 percent of 
Americans live in those cities.
    Gun homicides and assaults are concentrated in specific 
neighborhoods in specific cities. In St. Louis, for example, 
where Congressman Clay is from, 28 of the city's 88 
neighborhoods had either 0 or 1 murder in the last 5 years. But 
41 percent of St. Louis' murders and 35 percent of gun assaults 
occurred in just 9 of those 88 neighborhoods. And 
unfortunately, we have seen that disparity grow in lots of 
American cities.
    I empathize with my colleagues that represent cities with 
high rates of gun violence, but gun control solutions that have 
been offered by this Congress, by a lot of my colleagues often 
would do little to address crime rates in those cities. Some of 
my colleagues have looked at the concentration of gun deaths in 
cities and concluded that the solution is to pass restrictive, 
vague laws and impose significant significant burdens on law-
abiding gun owners all across the country.
    Law-abiding Americans in Northeast Texas that I represent 
and law-abiding Americans who live in communities across the 
country don't commit gun crimes in Chicago or in St. Louis or 
New Orleans or Baltimore, or any other major American city. An 
attempt by this Congress to restrict Second Amendment rights of 
law-abiding Americans in an effort to pay lip service to the 
idea of public safety or public health is, frankly, an affront 
to common sense. I think it misses the mark on solutions that 
would actually reduce gun violence across our country.
    So why not address the issue of mental health? Why not 
explore ways that school resource officers keep their schools 
and students across the country safe? Why not look at programs 
we already have in place that work to improve those programs, 
make them better? Programs like Project Safe Neighborhoods, 
which was a program that existed when I was the U.S. attorney 
for the Eastern District of Texas.
    Why not explore community solutions to problems that are 
facing our cities? Some have suggested that we should not 
criminalize communities impacted by everyday gun violence. What 
would we say to a parent in one of our cities if their child 
was gunned and murdered? Is the prosecution of the murderer of 
that child just another contributor to mass incarceration? The 
answer is unequivocally no.
    This is an issue of criminal justice. This is about justice 
for the victims of these crimes, whether they are a child 
gunned down while playing outside or a single mother murdered 
by a domestic abuser. This is about keeping our communities 
safe, community-driven solutions that are tailored to meet the 
needs of a given community that should be heard and should be 
examined.
    Until we reckon with these basic truths and discuss 
solutions that will actually hold accountable the perpetrators 
of gun violence instead of restricting the rights of law-
abiding gun owners, we will continue to be mired in gridlock.
    I yield back.
    Ms. Bass. Thank you.
    And let me just respond, if you don't mind? I believe we 
have a lot more in common than we do differences, and let me 
assure you that I do not believe in any way, shape, or form 
that there is one solution. I think we need a comprehensive 
solution, and many of the things that you discuss I believe are 
part of that comprehensive solution.
    With that, I am pleased to recognize the chairman of the 
full committee, the gentleman from New York, Mr. Nadler, for 
his opening statement.
    Chairman Nadler. Thank you, Madam Chair.
    I thank the chair of the subcommittee, Karen Bass, for 
holding this critical hearing about community-driven strategies 
to reduce gun violence in our cities across the Nation. This 
discussion is a critical component of this committee's 
comprehensive approach to addressing our national epidemic of 
gun violence.
    As we have seen, no American is immune from gun violence. 
The spike of mass shooting incidents, high suicide rates, 
domestic violence incidents, and daily homicides that we have 
seen in recent years has touched all of our communities. But 
gun violence has particularly victimized high-poverty 
communities of color across the country, with tragic results.
    Every day in America, 100 people are shot and killed, and 
210 more survive gun injuries. Half of all gun homicides took 
place in just 127 cities, however, which represented nearly a 
quarter of the population of the United States. Now these 
homicides are most prevalent in racially segregated 
neighborhoods with high rates of poverty. These communities 
lose grandparents, mothers, fathers, teens, or young children 
to gun violence at an alarming rate. This is simply 
unacceptable.
    Today's hearing is intended to generate a national 
conversation about gun violence and its destructive impact on 
our communities. We must analyze gun violence in America the 
same way we would analyze a disease, as it is, in fact, a 
public health issue, as well as one of public safety.
    Today, we will hear about the scope and gravity of this 
issue, the root causes of gun violence in specific communities, 
and local prevention and intervention programs that implement 
evidence-based violence reduction strategies that engage all 
community stakeholders.
    We must acknowledge and examine the loopholes in the law 
that allow tens of thousands of guns to enter the illegal 
market. The vast majority of these guns are trafficked from 
States with weak gun laws to States with stronger gun laws.
    Also, mayors of cities across the Nation are pleading for 
changes to State firearm preemption laws that block cities like 
Chicago, Dayton, Philadelphia, Pittsburgh, and St. Louis from 
adopting reasonable gun legislation to protect their residents.
    In addition, the antiquated gun tracing system, severe 
budget cuts, and laws placing unnecessary restrictions on the 
Bureau of Alcohol, Tobacco, Firearms, and Explosives have 
undermined its ability to enforce Federal gun laws and regulate 
the gun industry effectively.
    Strengthening our gun laws is just a start. Gun violence in 
our communities is a multifaceted issue that requires a 
holistic approach. Federal, State, and local government efforts 
must reflect the need to address this problem comprehensively, 
investing in evidence-based anti-gun violence programs and 
ensuring that these programs are tailored to the needs of the 
communities most affected by the crisis.
    I look forward to hearing the perspectives of our 
colleagues, Representatives Lacy Clay and Robin Kelly, who 
represent the St. Louis and Chicago areas, respectively, both 
of which are directly impacted by chronic gun violence. I also 
look forward to hearing from our other expert witnesses about 
the scope of the problem and what solutions have been shown to 
work. Their testimony today will help inform our efforts to 
take a comprehensive approach to addressing the national 
emergency of gun violence.
    I thank the chair of the subcommittee for holding this 
important hearing, and I yield back the balance of my time.
    Ms. Bass. We will now hear from our first panel, the 
Honorable William Lacy Clay, who represents the First District 
of Missouri, and Honorable Robin Kelly, who represents the 
Second District of Illinois. And we thank you for joining us 
today.
    Mr. Clay.

   STATEMENTS OF HON. WILLIAM LACY CLAY, A REPRESENTATIVE IN 
 CONGRESS FROM THE STATE OF MISSOURI; AND HON. ROBIN KELLY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

              STATEMENT OF HON. WILLIAM LACY CLAY

    Mr. Clay. Thank you, Chairwoman Bass, Chairman Nadler, and 
Ranking Member Ratcliffe, who I want to recognize as his sister 
being a friend and constituent of mine in St. Louis.
    I appreciate the subcommittee's efforts to organize and 
hold a hearing on this important topic. This Nation and the 
community that I represent in St. Louis are facing a public 
health emergency, and I am not just speaking about the tragic 
frequency of mass shootings in schools and other public spaces.
    Members of this committee and the 116th Congress have had 
numerous opportunities to make it known how they prioritize 
firearm safety. Regardless of what any of my colleagues have 
said publicly about the issue, this body has a responsibility 
and an opportunity to work together and move the debate 
forward. The nearly 40,000 people killed by firearms in the 
United States in 2017 no longer have that chance to move this 
debate forward.
    The people living and working in my district, where nearly 
600 shootings have occurred so far this year, do not have the 
choice to remain silent while these issues impact their daily 
lives. I do not have that choice.
    Since May, at least 22 children under 16 years of age have 
been killed by guns in the St. Louis region, some due to random 
shootings, others due to accidents and unsecured handguns. It 
is due to statistics like that that black families are 62 
percent more likely to lose a son to a bullet than to a car 
accident.
    Now my community is already on track to top last year's 
rate of gun-related injuries and deaths, and I know we are not 
alone. Our city councils and other local leaders used to be 
able to confront these issues directly. Mayors and law 
enforcement would work with other community leaders and 
residents to discuss ways to make our streets safer.
    Unfortunately, in the 1980s, the gun lobby started 
approaching Governors, State legislators, and even some of my 
colleagues in Congress to make sure that these dedicated local 
leaders and first responders would not be able to do what they 
need to do to address firearm safety. This is unacceptable. 
That is why I, along with my esteemed colleague and friend 
Congresswoman Robin Kelley, introduced legislation to restore 
the ability of these local leaders to pass common sense laws 
and regulations. And our new legislation is directed to help 
curb the slow motion mass shootings that occur in St. Louis, 
Chicago, and other urban communities every week.
    H.R. 3435, the Local Public Health and Safety Protection 
Act, would allow the Department of Justice to provide grants to 
States that reverse their ill-advised firearm preemption laws 
and allow local government to take reasonable measures to 
address gun violence on their streets. And under the bill, 
States should not prohibit or restrict a local government from 
requiring background checks for firearm purchases, restricting 
the ability to carry a firearm in public places, restricting 
the quantity and type of ammunition that an individual is 
allowed to purchase, or requiring gun owners to safely store 
their firearms, especially in households with children, and 
prohibiting the sale and transfer of certain types of 
especially deadly firearms and accessories, including 
semiautomatic assault weapons and large-capacity ammunition 
magazines, among other provisions.
    The epidemic of gun violence in places like St. Louis and 
Chicago is different than the situation in smaller cities and 
towns across Missouri and across this country. Not every 
community faces the same challenges. That is why this bill 
works.
    Communities who do not experience high rates of gun 
violence would likely not see the need to implement higher 
standards at local levels, but the impact on other communities 
would be meaningful. This act is all about hope, the hope that 
we can finally give local governments the freedom to protect 
innocent citizens and first responders while making our 
neighborhoods safer, regardless of what the State legislature 
thinks.
    And Madam Chair, I would stop there and say thank you again 
for allowing me this opportunity.
    [The statement of Mr. Clay follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Ms. Bass. Absolutely. Representative Kelly.

                 STATEMENT OF HON. ROBIN KELLY

    Ms. Kelly. Madam Chair, before I begin my testimony, I 
would like to ask for unanimous consent to enter into the 
hearing record a statement from Mayor Lori Lightfoot of 
Chicago.
    Ms. Bass. Without objection.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Ms. Kelly. Chairman Nadler, Chairwoman Bass, Ranking Member 
Ratcliffe, and members of the subcommittee, thank you for 
holding this important hearing on urban gun violence. I wish 
that I was here to talk about a more positive topic, but sadly, 
I am here to talk about an epidemic sweeping through the United 
States.
    Gun violence is an epidemic that kills nearly 100 Americans 
each and every day and forever changes the lives of 250 others. 
Not every year, not every month or week, but each and every 
single day. And this epidemic, like so many others, has a 
disproportionate impact on the African-American community.
    I am proud to represent the great City of Chicago, and like 
all cities, we have our share of challenges, and gun violence 
is one. We are a city awash in illegal guns that are 
transported over our borders from Indiana, Wisconsin, Kentucky, 
and Missouri, all of which are States with weak or non-existing 
gun safety laws. A patchwork system is unworkable. We need a 
national solution to this national problem.
    To date, Chicago has lost 341 people to gun violence. That 
is 341 sons, daughters, mothers, and fathers whose lives were 
cut short due to congressional inaction. There have been over 
1,500 shot.
    In my district, I hear from young people, some of whom are 
numb to the pain. Others feel the sense of urgency. More than 
half of all guns used to commit crimes in Chicago come from 
outside of Illinois. We can't be an oasis of common sense 
surrounded by States beholden to the gun lobby.
    We need strong Federal laws against straw purchases and gun 
trafficking because these common sense ideas are proven to save 
lives. We also need the background check bill passed to the 
Senate brought to the floor and signed by the President.
    Many gun violence deaths could be preventable. We could 
save more than 30,000 American lives every single year. A 
recent study shows that States with stronger gun safety laws 
have 35 percent lower rates of gun deaths for children and 
teenagers. These laws, like universal background checks, are 
supported by more than 90 percent of Americans and save lives, 
specifically the lives of our Nation's young people.
    These bills before you today are also important next steps 
toward combatting gun violence, as is the bill I recently 
introduced, H.R. 4116, the Prevent Gun Trafficking Act, which 
would make straw purchases a Federal crime. Straw purchases, I 
am saying, because a number of trafficked guns are straw 
purchased. Straw purchases are not just a problem in Chicago, 
but every urban community is challenged with crimes using guns 
that are purchased illegally.
    We have reached a point in our country where many Americans 
have been affected by gun violence, either directly or through 
a close neighbor, friend, coworker, or family member. Gun 
violence happens everywhere, in every community and, sadly, in 
too many families. I just lost a 12-year-old today. She was 
shot sitting in her home planning her birthday party, and a 
bullet came through the window, and she died on her birthday.
    At this very moment, we are at a pivotal crossroads. We are 
seeing a reform movement sweep across America in big cities and 
small towns. In actuality, we are seeing many movements 
converging together, demanding profound change, much like the 
1960s, made up of concerned citizens standing up and speaking 
out for their fellow Americans.
    Hundreds of thousands of people are taking to the streets 
every few months. Just yesterday, young people from Chicago and 
other young people from across the United States came to D.C. 
to demand action, all of them marching shoulder to shoulder for 
common sense gun laws. Our young people in Chicago have been 
speaking out for years. Now they are joined by the students of 
Marjory Stoneman Douglas High School and thousands of other 
young people who are galvanizing the Nation.
    Young people are rising up, speaking out, and demanding 
action, and I couldn't be prouder of them. These young people 
are energizing our movement, even though many of us have been 
soldiers in the movement for many years. These young people are 
the reinforcements that we always needed.
    Our numbers keep growing. Every day, more and more people 
are realizing their safety and security is eroding. More and 
more people are joining the fight for common sense gun reform.
    In closing, I do want to say this is not about taking guns 
away from people who have them legally, and they are not trying 
to hurt me, you, or anybody else. Also I know it will take more 
than laws. It will take improved police-community relations and 
also will take investing in our neighborhoods and scaling up 
effective programs that I know exist in the Chicagoland area.
    I wrote a report in 2014 called the Kelly Report on Guns, 
and it discusses root causes and solutions and that this is a 
public health crisis. And lastly, we like to blame mental 
health, but more people with mental health are hurt by guns 
than hurt other people.
    I yield back.
    [The statement of Ms. Kelly follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Ms. Bass. Thank you very much for your time and your 
testimony, and I will look forward to that report that you 
mentioned. You wrote it 5 years ago?
    Ms. Kelly. Yes, and we are updating it.
    Ms. Bass. Okay. I would like to now bring forward our 
panel. Could our panel come forward? Mr. Bocanegra, Amber 
Goodwin, Reggie Moore, Maj Toure.
    [Pause.]
    Ms. Bass. Now if you would please rise, I will begin by 
swearing you in. If you would please rise? Raise your right 
hand.
    Do you swear or affirm under penalty of perjury that the 
testimony you are about to give is true and correct, to the 
best of your knowledge, information, and belief, so help you 
God?
    [Response.]
    Ms. Bass. Thank you. Let the record show the witnesses 
answered in the affirmative.
    Thank you, and appreciate your coming forward today.
    Please note that your written statements will be entered 
into the record in their entirety. Accordingly, I ask that you 
summarize your testimony in 5 minutes.
    To help you stay within that time, there is a timing light 
on your table. When the light switches from green to yellow, 
you will have 1 minute to conclude your testimony. When the 
light turns red, it signals that your 5 minutes have expired.
    I want to first introduce Amber Goodwin. Ms. Goodwin is the 
founding director of the Community Justice Action Fund and the 
Community Justice Reform Coalition. CJAF is the Nation's 
leading gun violence prevention organization, working on 
policy, education, leadership development, and building 
resources centered on communities of color. Under Amber's 
leadership, CJAF is filling a critical role in advocating for 
solutions and leadership roles for marginalized communities of 
color.
    Eddie Bocanegra, Mr. Bocanegra is the senior director of 
READI. Do you say ``read-eye''?
    Mr. Bocanegra. READI Chicago.
    Ms. Bass. Oh, ``ready,'' okay. READI Chicago. In this role, 
he oversees the management and implementation of the evidence-
based and trauma-informed program to reduce violence and 
promote safety and opportunity. Mr. Bocanegra brings years of 
experience in community-based organizations and programs 
created to address trauma and build resiliency among those most 
impacted by violence.
    Reggie Moore currently serves as the injury and violence 
prevention director of the City of Milwaukee, and I believe 
Representative Gwen Moore is here or was here. You are one of 
her constituents. The director of the City of Milwaukee Office 
of Violence Prevention, a division of the Milwaukee Health 
Department.
    Mr. Moore leads the city's efforts to assess, prevent, and 
decrease incidence of structural and community violence. He 
facilitated the development of Milwaukee's first comprehensive 
violence prevention plan, known as the ``Blueprint for Peace,'' 
which is a community-centered plan that takes a public health 
approach to addressing the root causes of violence and trauma.
    Mr. Moore leads the National Youth Activism Program for the 
Truth Initiative in Washington, D.C., where he designed and 
implemented programs to increase public health advocacy among 
youth throughout the country.
    Mr. Toure is the founder of Black Guns Matter. He believes 
that Americans in inner cities must be allowed to exercise 
their Second Amendment right and challenge the status quo for 
smaller amounts of people to carry, but not most others. I 
don't know. I think that didn't sound right.
    We welcome all of our distinguished witnesses and thank 
them for participating in today's hearing.
    Mr. Bocanegra.

  TESTIMONY OF EDUARDO BOCANEGRA, SENIOR DIRECTOR, HEARTLAND 
     ALLIANCE; REGGIE MOORE, DIRECTOR, OFFICE OF VIOLENCE 
 PREVENTION, ON BEHALF OF CITY OF MILWAUKEE HEALTH DEPARTMENT; 
   MAJ TOURE, FOUNDER, BLACK GUNS MATTER; AND AMBER GOODWIN, 
EXECUTIVE DIRECTOR, COMMUNITY JUSTICE ACTION FUND AND COMMUNITY 
                    JUSTICE REFORM COALITION

                 TESTIMONY OF EDUARDO BOCANEGRA

    Mr. Bocanegra. Good morning, Chairman Bass and Ranking 
Member Ratcliffe and members of the committee.
    Oh, sorry. Is it on?
    So, again, thank you for the opportunity to appear before 
you today to discuss the gun violence facing communities across 
our Nation and to share the actions of Heartland Alliance and 
other organizations, advocates, and survivors of violence in 
Chicago, while working around the clock to make our communities 
safer.
    Communities across our country are struggling with 
violence, cities like Baltimore, Detroit, St. Louis, Chicago. 
Much of this violence is concentrated in a handful of 
impoverished neighborhoods. This year alone, Chicago has had 
over 2,000 shootings and over 300 homicides as a result of gun 
violence. Just this past weekend, 21 people were wounded, and 5 
were killed.
    Behind every shooting, there is a family left to grapple 
with the aftermath. Mothers, like Mrs. Jennings, whose son was 
shot 19 times, and Rodney Bell, who was shot in the face 
multiple times. I had the honor of knowing these young men, and 
I personally witnessed their efforts to change the 
circumstances they were born into. These killings and resulting 
trauma are preventable.
    Neighborhoods with high levels of violence routinely face 
other compounding survival issues, like limited or no access to 
employment, safe housing, health and mental services, and more. 
This results in a heartbreaking cycle of poverty, violence, and 
trauma. And we know that exposure to violence and trauma can 
make people react in unpredictable ways that may not be 
appropriate to the situation.
    Much of gun violence in Chicago, for example, is the result 
of a split-second decision by traumatized individuals who have 
grown up surrounded by violence. I know this from personal 
experience.
    I witnessed violence and domestic abuse at home when I was 
6 years old. By the time I was 13, I witnessed my first 
homicide. I was 17 when a close friend of mine died in front of 
me, and by the time I was 18, I was sentenced to 29 years in 
prison for murder.
    In prison, I saw that most people look exactly like me. The 
men who rotated through what seemed like revolving prison doors 
shared the same goals as me, never to return. Somehow many of 
us fell short. Nearly everyone who returned to prison lacked 
the same things, a plan for how to survive outside of prison; a 
network of people who would stick by them, and when they faced 
setbacks, they would be there; access to support systems to 
help them cope with feelings of hopelessness, loss, and 
frustrations.
    Since my release from prison 11 years ago, I have earned a 
Bachelor's from Northeastern Illinois University and a Master's 
degree from the University of Chicago. I have created 
innovative approaches to leveraging marginalized groups as part 
of the solution, such as U.S. veterans, parents who lost 
children to violence, and people with justice involvement.
    My perspective on this deeply--my perspective on this is 
deeply informed by my personal experience and education. I am 
proud to be a part of a movement in Chicago that aims to 
dramatically reduce cycle of poverty and violence in our city. 
The surge in gun violence in Chicago 2 years ago spurred action 
in unprecedented ways.
    A coalition of more than 40 Chicago funders and foundations 
under the umbrella of Partnerships for Safety and Peaceful 
Communities courageously aligned their funding to support 
proven and promising programs and approaches to reducing gun 
violence, rebuilding communities and developing leaders who can 
sustain safety and opportunity.
    There is a number of promising initiatives that can serve 
as models, including the Metropolitan Peace Academy, lead by 
Communities Partnering for Peace, which was established to 
professionalize street outreach work; Chicago CRED; Chicago 
Public Schools Safe Passage, which was designed to provide safe 
routes for students while traveling to and from school; and 
READI Chicago, the program that I run.
    With our six partners, we relentlessly engage men who are 
most highly impacted by gun violence and connect them with paid 
employment, cognitive behavioral therapy, and supportive 
services. READI Chicago is being evaluated by the University of 
Chicago's Urban Labs so that we can learn all that we can about 
what is taking--what it takes to meaningfully identify and 
engage men who are at the highest risk of gun involvement and 
keep them alive.
    There are no Federal programs designed to support bold, 
comprehensive responses to prevent violence like ours. 
Importantly, very few programs are led by people like me with 
life experience like mine. We urgently need attention and 
sustained investment in people who are the most at risk before 
more lives are lost.
    And I wanted to close by sharing a story of one of our--of 
those that we lost. When I first met Davon, he was unhappy with 
his life and community. He joined our program and started to 
see change. He was beginning to plan for a future. Tragically, 
Davon was shot and killed just about 2 months ago on an 
afternoon, 5:45, as he was heading back home from work.
    And I can't help but to think about the young man who ran 
up to Davon and shot him. What if he had been given the tools 
to help him pause and think? What if he had been surrounded by 
people who cared enough about him, to address his pains or 
grievances and change his thoughts? Perhaps Davon would still 
be alive.
    After spending much of my time in prison contemplating how 
my future would have meaning, my goal is clear. To use my 
experience as a former gang member and inmate, as well as my 
formal education to save lives and to help others with 
backgrounds like mine find and achieve their own dreams for a 
safer and better future.
    We can do this, and I appreciate your support.
    [The statement of Mr. Bocanegra follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Ms. Bass. Thank you. Thank you.
    Mr. Moore. It is hard to look at those pictures, you know?

                   TESTIMONY OF REGGIE MOORE

    Mr. Moore. Thank you, Chairwoman Bass, Ranking Member 
Ratcliffe, and other members of the subcommittee, for providing 
the opportunity for me to speak before you today.
    Again, my name is Reggie Moore. I am the director of the 
City of Milwaukee's Office of Violence Prevention, and I want 
to start by thanking my esteemed congresswoman, Gwen Moore from 
Wisconsin's Fourth District, for her invitation to address this 
critically important issue. I am sure she shares our excitement 
for being the host for the 2020 Democratic National Convention 
in our city.
    And I would also like to acknowledge Congressman 
Sensenbrenner for his many years of service, who also serves on 
this committee.
    I am grateful for this opportunity to share the vision, 
approach, and progress Milwaukee has made toward addressing 
violence as a public health issue not only because this topic 
is deeply personal for me, but because we are long overdue for 
lifting up community-based solutions proven to prevent and 
reduce violence in communities across this country.
    We have an opportunity right now to invest in policies and 
programs that could literally save lives or continue to ignore 
the slow mass murder happening on the streets of our cities 
every day across this country. Our mayor and former congressman 
Tom Barrett has been a champion for gun violence prevention for 
more than a decade. As one of the first mayors involved with 
Mayors Against Illegal Guns and Cities United Against Gun 
Violence, he remains committed to this issue. However, cities 
cannot bear this burden alone.
    Today, I will speak briefly to you about the approach we 
took to frame violence as a public health issue, the perils of 
punishment over prevention, our success with engaging residents 
and prioritizing local solutions, and the need for national and 
State-level support for these efforts.
    The pictures sitting before you are of young people--and 
only a few of, unfortunately, too many--who have been killed in 
crossfire shootings in the City of Milwaukee. This issue does 
not just affect one community or one zip code but has impacted 
lives across our entire city.
    This young lady here is Sandra Parks. She was a brilliant 
13-year-old girl who was killed on November 19th by a bullet 
fired from an assault rifle outside of her house as she sat in 
the safety of her own bedroom. Her life was taken just 2 years 
after she wrote an award-winning essay about gun violence.
    They all should be here today, whether taking a tour of the 
national Capitol with other children that we encountered on our 
way here or actually sitting at this table as advocates. And 
unfortunately, none of them will have the opportunity to sit in 
the seats that you are sitting, with the power and ability to 
make a change in this country on this issue.
    I want to briefly read a passage that she wrote in her 
essay that I think underscores the impact that many children in 
our country feel in cities and in neighborhoods as it relates 
to gun violence. ``Sometimes I sit back, and I have to escape 
from what I see and hear every day. I put on my headphones and 
let the music take me away. I move to the beat, and I try to 
think about life and what everything means. When I do, I come 
to the same conclusion. We are in a state of chaos.
    ``In the city in which I live, I hear and see examples of 
chaos almost every day. Little children are victims of 
senseless gun violence. We must not allow the lies of violence, 
racism, and prejudice to be our truth. The truth begins with 
us. Instead of passing each other like ships in the night, we 
must fight until our truths stretch to the ends of this 
world.''
    Launched in 2008, the Office of Violence Prevention sits 
within the Milwaukee Health Department. Our mission is to 
prevent and reduce violence through partnerships that 
strengthen young people, families, and neighborhoods. Under the 
leadership of Mayor Barrett, Milwaukee launched the office in 
2008, placing the office in the Health Department, underscoring 
our commitment early to treating this as a public health issue.
    Unfortunately, in cities across the country, violence has 
often been simplistically regarded as bad people doing bad 
things in bad places, punishable by death, divestment, or 
confinement. This has led to a manmade disaster for young 
people, families, and neighborhoods. Instead of addressing the 
root causes of violence, we decided to punish it. In many 
cities, poverty, trauma, unemployment became an issue for the 
criminal justice system to manage, especially in African-
American communities.
    We cannot talk about violence in Milwaukee without talking 
about mass incarceration. As of the 2010 Census, Wisconsin had 
the highest incarceration rate of black males nationwide, 
locking up 12.8 percent of black male residents, compared to 
the country's 6.7 percent average at that time. Out of 56 
majority black communities in Wisconsin, 31 are jails or 
prisons.
    Concentrated punishment is an expensive habit that has had 
a significant impact on local and State taxes more than 
housing, transportation, higher education, youth development, 
or public health. In 1970, Milwaukee was a thriving industrial 
city with a relatively low poverty rate. But decades of 
industrial decline and population loss have taken their toll.
    By 2019, the city spends over $300 million, 40 percent of 
the city's budget, on law enforcement alone. This cost exceeds 
the total amount of revenue collected through property tax 
levied for the entire city.
    Milwaukee clearly cares about public safety, but this is 
fiscally and morally unsustainable for our community. The 
punishment of disadvantage hides the deep and cumulative impact 
of policy decisions so that the real work of solving these 
problems never happens. High neighborhood unemployment rates 
are never addressed, the foster care system is never repaired, 
and underfunded schools close en masse.
    In Milwaukee, in 2017, we engaged the community in 
developing a comprehensive violence prevention plan called the 
Blueprint for Peace. In the written document, you have copies 
of that, and this is a comprehensive approach that calls for 
all hands on deck to addressing this issue so that we can stop 
the pipeline from pain instead of investing in incarceration 
and death on the backend.
    Thank you.
    [The statement of Mr. Moore follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
           
    Ms. Bass. Thank you very much.
    And before we go to the next witness, I just wanted to 
detour a little bit and let Representative Jackson Lee have a 
few words before she has to leave, and then we will come to 
you, Mr. Toure.
    Ms. Jackson Lee. Let me accept the courtesies in the 
proficient and efficient manner to respect all members, but I 
had to acknowledge all the witnesses, first of all, and to hear 
you talk about the redemption, as opposed to incarceration and 
murder and death at the end. But I want to acknowledge my 
fellow Texan and fellow Houstonian Amber Goodwin and to let her 
know that if she sees me stepping out, I am managing bills on 
the floor. That is another place way away.
    But I wanted to say not only does she have the wisdom to 
organize and be the founding member, the director of the 
Community Justice Action Fund and the Community Justice Reform 
Coalition dealing with gun violence, but we have worked 
together in organizing and empowering people. And if there is 
anyone that can be solution oriented on these questions, Madam 
Chair and to the ranking member, it is Amber, along with her 
fellow witnesses.
    And Amber, I look forward to us being in tandem as we sort 
of lift this up in the many challenges that we have in our 
hometown, but in the Nation. Let me thank you for the work that 
you have done and my privilege to be here to welcome you.
    Forgive me. I hope you will stay around, and I can catch up 
with you, if I am allowed to say that on the record.
    Thank you very much. Madam Chair, let me yield back to you 
as I thank this fellow Texan.
    Thank you.
    Ms. Goodwin. Thank you.
    Ms. Bass. Mr. Toure.

                     TESTIMONY OF MAJ TOURE

    Mr. Toure. Good morning. Thanks, everybody, for having me. 
I appreciate everyone listening.
    Can you all hear me? Good? Okay.
    Good afternoon. My name is Maj Toure. I am the cofounder of 
Black Guns Matter. Our organization travels around the country 
to address firearms-related rights and responsibilities. Each 
one of our classes, which happen in libraries, churches, 
recreation centers, and even on street corners, where we 
discuss firearm safety, conflict resolution, and the law.
    My travels have afforded me a unique opportunity to see 
firsthand the issue of violence in our urban centers, as well 
as the failures and successes of various approaches. Black Guns 
Matter started 4 years ago, and the data we have collected has 
been and will continue to be a very valuable tool in saving 
lives and protecting freedoms as stated in the Constitution and 
Bill of Rights.
    Personally, I know that today's hearing is centered on 
quelling the violence in urban communities, but the phrasing is 
a bit off. We do not have a gun violence issue in our urban 
centers. But we do have a host of other issues that, coupled 
with the lack of de-escalation tools, lead to violence.
    What we are experiencing is not an issue with guns, per se, 
but more lack of ability to navigate trauma. If we are going to 
address violence in urban America, we need to address violence 
of all kinds. Singling out firearms is a tremendous misstep in 
solving the issue, and I hope my testimony today will assist in 
redirecting our focus.
    One of the first ways that we have tackled this issue with 
Black Guns Matter is by identifying and labeling answers as 
``solutionary.'' Giving urban Americans tangible skills has 
been very impactful because we define not only what our 
approach is, but also a parameter for staying the course of 
solution-based thinking. By naming what we are doing, we have 
given Americans all around the country an ideology to galvanize 
around solutions more so than further focusing on the problem.
    Our focus is solutions to violence. Our approach is 
conflict resolution. Our goal is saving lives and mitigating 
trauma. Our results have been and are healing while defending 
freedoms. This is the solutionary way that has been effective.
    In 2016, when we started Black Guns Matter, it was a result 
of a steady barrage of media images that depicted our 
communities as violent and savage. That year, one of my best 
friends was shot in the head because of negligence.
    As news of his death circulated, I couldn't----
    Ms. Bass. Your microphone?
    Mr. Toure. As news--my microphone is turned off. Is it on?
    Ms. Bass. Ms. Goodwin, maybe you could move your mike over? 
Let us see.
    Mr. Toure. How about this one?
    Ms. Bass. Yes.
    Mr. Toure. Okay, cool. Try it again.
    As news of his death circulated, I couldn't help but think 
how easy it would have been to ensure he knew the basics of 
conflict resolution and safety. I recognized that in addition 
to doing a voter registration drive that year, we needed to do 
a license to carry drive by inviting people in my community to 
be safe and responsible gun owners.
    That year, we hosted our first class in North Philadelphia, 
where I am from, expecting 35 people. Instead, 350 showed up to 
learn. Guns are a taboo topic in urban America. Therefore, 
safety training has purposely been withheld in our communities, 
and the homicide rates are a direct reflection of that 
ignorance.
    That year we started Black Guns Matter, Philadelphia saw 
the lowest firearm-related deaths it had since 1979. After 
weekly ongoing classes, which continued to overflow from the 
space, we began getting calls in other cities. We need you to 
come to Baltimore, Chicago, Brooklyn, Milwaukee, Compton, to 
host some of these classes.
    With the support of crowdfunding, we started a 13 cities 
tour, began visiting cities with the highest homicide rates to 
inform members of the community on conflict resolution, de-
escalation, and training. This is a place where people from 
both sides of the aisle can agree that this simple act of free 
education is saving people in my community from prison, 
negligence, and death.
    I want to take this time, this moment to provide a bit more 
in-depth information about what our classes include. Also I 
want to let you know that we have now trained over hundreds of 
thousands of people across the country and have been in almost 
all 50 States, taking an approach that not only preserves 
freedoms but empowers the people.
    The first component to every class is firearm safety. The 
power that comes with firearms ownership is also a tremendous 
responsibility. Safety training and education to prevent 
negligent death is something we control with proper knowledge 
around firearm safety.
    I have a little bit of time left. So I am going to cut back 
on some of this testimony.
    The LAW. Lawyers, prison, families, freedom. We have 
tremendous success in sharing local laws by inviting lawyers to 
teach beginners who may not know local carry, proper storage 
and handling laws, and things of such.
    The last one, conflict resolution. According to the CDC, of 
the 12,979 firearm homicides in the United States in 2015, 81 
percent occurred in urban areas. For example, 2014, in 
Philadelphia's safest police district, which is approximately 
85 percent white, no one was reported to be killed by gun 
violence. The homicide rate for black Americans in all 50 
States is on average 8 times higher.
    Importantly, most urban areas, especially those that 
experience the most gun violence, are characterized by poverty, 
inequality, racial segregation, and a lack of education around 
firearm safety.
    In closing, in the last 4 years, we have developed a 
curriculum. This is developed. We have developed a curriculum 
based on lived experience and case studies all around this 
Nation and some of the areas that suffer the most poverty, 
human rights restrictions, and negligence in the country. Our 
experiences with applying these solutions have been that most 
people, regardless of political affiliation, respect our 
people-powered initiative.
    Communities can solve these problems on our own primarily 
because we have taken this holistic, solution-based approach 
more than the ``guns are bad, and the problems will just go 
away if you restrict them'' attempt.
    To add more restrictions to good Americans solves nothing. 
Education and solidarity around intelligence has been the most 
productive means of striking balance between solutions and 
respect for rights. And I don't in any way think punishment 
solves problems more than proper education from a holistic and 
freedom-based perspective.
    Thank you for your time. I know that we, as Americans, can 
solve this issue with logic and respect for our Bill of Rights.
    [The statement of Mr. Toure follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Ms. Bass. Ms. Goodwin.

                   TESTIMONY OF AMBER GOODWIN

    Ms. Goodwin. Thank you, Chairwoman Bass and Ranking Member 
Ratcliffe--also a fellow Texan--and members of the 
subcommittee, for inviting me and having the opportunity to 
testify today.
    My name is Amber Goodwin, and I am the founder and director 
of the Community Justice Action Fund.
    Gun violence impacts every American community. Although 
black, Latinx, and indigenous communities bear the heaviest 
burden of violence, we often receive the least amount of 
attention from policymakers.
    Today, I speak not only as someone who has the privilege to 
be asked to testify before you, but also as a black woman with 
the responsibility to speak for the millions of people of color 
who have been impacted by gun violence and whose voices are 
absent from or sometimes silenced within the gun violence 
prevention movement.
    I started working on gun violence almost 5 years ago, 
working for one of my heroes, Congresswoman Gabby Giffords. It 
is also where I met another one of my heroes, Congresswoman 
Lucy McBath. I love saying that.
    In 2015, in the aftermath of the shooting in Charleston, I 
listened and learned from leaders like Pastor Michael McBride 
and Erica Ford, who have been working on violence prevention 
for decades. When I looked around at other gun violence 
prevention organizations in the halls of Congress, I didn't see 
anyone who looked like me who was invited to the table to 
discuss issues of gun policy.
    I started an organization specifically to give voice to the 
communities most impacted by gun violence and center them in 
the debate on guns, but I can promise you I am not here to have 
a debate today. It is my hope that policymakers and advocates 
use their voices, information, and legislation today as a 
launching pad to pursue a comprehensive and holistic policy 
agenda that is responsive to, driven by, and done by 
communities directly impacted by gun violence.
    I believe and I know another world is possible. One where 
we are not just talking about which individual has access to 
guns, but one where people don't want to pick up guns in the 
first place.
    All of the community intervention strategies you will hear 
about today are thanks to our loved ones who have been on all 
sides of a gun and work of leaders around the country who put 
themselves in harm's way every single day. These people are our 
loved ones, and they are my heroes.
    While there is progress, there is no one framework or 
approach that aims to unify the systems or sectors needed to 
end violence in America. In States across the country--
California, Massachusetts, Connecticut, Maryland, and most 
recently, in New Jersey--State lawmakers are creating change, 
and they are doing it through policy. What I am asking today is 
for the Federal Government to do the same.
    We must also support initiatives to combat gender-based 
violence because far too often, it is women who look like me 
whose voices go unheard. Black, Latinx, and indigenous women 
are dying at alarming rates, and we need to be empowered not to 
just say their names, but also demand change so their names are 
not just another hashtag.
    I could spend hours running down the list of our loved ones 
of color, including those most marginalized in our country, 
such as our trans brothers and sisters of color and those who 
are part of the disability community. Yet our issues are still 
not given the urgency, the resources, or political weight to 
even come close to making a difference.
    I have the following requests of this body today. Number 
one, funding. That you allocate adequate funding for public 
health-focused community interventions on gun violence and that 
you create a gun violence task force led by Members of Congress 
and leaders in the community.
    Number two, support. That you increase funding for gender-
based violence prevention initiatives to ensure that programs 
are able to meet the needs of survivors and create streamlines 
of funding for researchers of color to continue to innovate on 
the proven strategies that you will hear about today.
    Number three, inclusion. That you commit to the full 
inclusion of individuals with lived experience on all sides of 
the gun crisis in all future decision-making in this body.
    Communities like mine are still working to address the 
generational trauma that comes from one incident of gun 
violence. Shirley Chisholm said if there is not a seat at the 
table, bring a folding chair. We are still bringing folding 
chairs to meetings and tables in Washington.
    I am appreciative of being given a seat at the table here 
today, but as someone who has not been personally impacted by 
gun violence, I understand the importance of giving the 
megaphone to those voices that have gone unheard in the debate 
for so long. I actually believe it is time we flip the table 
over and disrupt how we really think about the possibilities of 
ending gun violence in America.
    I also believe that if we are serious about building safe 
and just communities, we can't just focus on the safety of some 
communities while turning our backs on the ones that are most 
affected. We need to focus on the safety of people who live in 
the neighborhoods that some politicians will only visit during 
the daytime.
    I am entering into the record copies of research, reports, 
and policies led by people of color organizations on the front 
lines of this work to help support the asks that we have today.
    Chairwoman and members of the subcommittee, thank you again 
for taking the time to let me testify and look forward to your 
questions.
    [The statement of Ms. Goodwin follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Ms. Bass. Thank you.
    We will now begin questions. Every member of the committee 
will have 5 minutes. I will begin.
    I just wanted to say that oftentimes when we have this 
discussion about community-based violence that there is the 
mistaken belief that people who are pushing for reforms, 
whether we are talking about gun control reforms or different 
solutions, that we do not care about the victims. But I think 
it just needs to be registered that the people that do the work 
like you, Mr. Bocanegra, or you, Mr. Moore, you work with the 
victims, too.
    The perpetrators, the victims are the same people in the 
same community. And so when you are calling for solutions that 
involve criminal justice reform, it is not without the concern 
over the people who are the victims. But as long as we have 
certain zip codes in this country where the violence is 
concentrated, where the arrests and the cycling in and out of 
the criminal justice system is concentrated, where people don't 
have opportunities once they get out because we have locked 
them out of the legal economy, then we shouldn't expect the 
problem to be resolved.
    So I absolutely believe in a comprehensive solution not 
just focusing on gun control, that we need to address mental 
health, we need to address education, economic opportunities. 
But we have chosen so far, as a nation, to not seriously invest 
in those areas. And so what I would like to ask you, beginning 
with you, Mr. Bocanegra, what would you like to see from 
Congress?
    So you run a nonprofit organization. I don't know how you 
are funded. I don't know if you receive any Federal funding. 
But what type of assistance do you need? What type of 
legislation do you believe we need to do to expand and 
replicate your work?
    I would like to ask Bocanegra as well as Mr. Moore.
    Mr. Bocanegra. Sure. Thank you, ma'am.
    So, first and foremost, I want to say thank you for the 
opportunity just to be able to speak and to be able to raise 
the issues in our community in Chicago and communities alike.
    Currently, READI Chicago is about a $20 million program 
that serves about 500-plus men who are at the highest risk of 
gun involvement. So we use science--police data, hospital 
data--to identify those who are at the highest risk of gun 
involvement, whether they are victims or perpetrators.
    And in fact, there is so much research out there, to your 
point, that often perpetrators of violence were also victims of 
violence. However, at what point do we decide that they stop 
being a victim?
    So it is my job, with the support of a coalition of 
organizations, to really find these individuals in the 
community and to provide employment opportunities in which 
these individuals are employees of Heartland Alliance.
    Ms. Bass. What do you need from us? What do you need us to 
do?
    Mr. Bocanegra. So what we need from you and from the 
committee is the hope that more resources are allocated to this 
level of work, for people who are on the extreme margins of 
being excluded from the community. And just last to say that in 
addition to that, right now all of our funding is--for the most 
part is coming from the private sector. We need Federal dollars 
behind us.
    Ms. Bass. Right.
    Mr. Bocanegra. Especially as we are learning more about 
this population as well.
    Ms. Bass. Okay. Let me move on to Mr. Moore.
    Mr. Moore. Thank you, Madam Chair.
    Milwaukee is one of several cities that received a ReCAST 
grant. ReCAST stands for----
    Ms. Bass. What type? ReCAST?
    Mr. Moore. ReCAST, Building Resilience in Communities After 
Stress and Trauma. It is housed in the Substance Abuse and 
Mental Health Services Administration. It is a 5-year grant, 
and we are entering the fourth year. And so I would ask if you 
would prioritize that those funds continue because they 
prioritize communities that have had high rates of gun violence 
as well as trauma.
    The other opportunity, Congresswoman Moore has a bill 
around conflict mediation that I think could support many of 
the things that have been presented today, but prioritizes 
building that capacity in local communities as far as formerly 
incarcerated and folks that are doing violence interruptions.
    Ms. Bass. Ms. Goodwin.
    Ms. Goodwin. I think one of the most important or, I guess, 
two very important pieces. One is on research. Most of the 
prison strategies that either you heard about today or you have 
on the record were innovated and actually started in the '90s. 
So that is Operation Ceasefire. That is Cure Violence.
    But what we haven't been able to do from a research 
component is, one, be able to really innovate on those 
strategies. There is someone who is based out of California 
named DeVone Boggan, who has been really incredible in 
innovating and started the office----
    Ms. Bass. I am sorry to interrupt you, but before I run out 
of time.
    Ms. Goodwin. Oh, yes.
    Ms. Bass. Mr. Toure, you mentioned the curriculum. Is your 
program funded?
    Mr. Toure. We have raised about--I am back. I think they 
got me back online.
    We raised about $235,000 from crowdsourcing. We have been 
able to maintain this 50-State tour. We have a goal of $1 
million that was raised incrementally. So we spend that and go 
to these different cities as we do that. But as far as our----
    Ms. Bass. Okay. So let me ask you all, and you can just 
raise your hand with this. Do you have programs that Members of 
Congress could go and visit so that we could learn more about 
what you do? Raise your hand if that is the case.
    [Show of hands.]
    Ms. Bass. I would just like to say before I yield to the 
ranking member, last year, Representative Chabot, I invited him 
to Los Angeles to come to visit some programs that are doing 
similar work, and I think it was very eye-opening. And I would 
like to say that maybe one of the things we could explore after 
this hearing is to go around and look at some innovative 
programs that are taking place around the country. If you would 
be open, I would be more than happy to organize that.
    I yield to my colleague.
    Mr. Ratcliffe. I yield my time to the gentleman from 
Virginia, Mr. Cline.
    Mr. Cline. Okay. I thank the ranking member. I thank the 
chair for putting this hearing together.
    This is an excellent panel that has real results in all 
different localities around the country to address violence in 
our communities. It is something that we can all agree on that 
needs to be addressed. It is something that we should all--the 
best solutions are going to come from our individual districts, 
from our individual cities, from our individual experiences.
    And in my district, we have something called Project Safe 
Neighborhoods. The Roanoke Division's PSN program recently 
completed a successful operation, making several arrests and 
the seizure of illegal firearms, narcotics with a street value 
of $500,000, and $80,000 in currency. And we--and law 
enforcement gathered intelligence as part of an ongoing 
criminal investigation, and those arrested were charged with 
various State and Federal crimes.
    But more interesting to me was just the detail with which 
these successful programs were outlined. Mr. Moore, for 
example, your goals overview, the six goals--number one, stop 
the shooting. Stop the violence. Number two, promote healing 
and restorative justice. Number three, support children, youth, 
and families. That one, I think, in particular is critical.
    Promote economic opportunity. Five, foster safe 
neighborhoods. Six, strengthen capacity and coordination of 
violence prevention efforts. It is an excellent listing of all 
the different programs.
    Ms. Goodwin, you talked about all the different State 
programs that are addressing violence in communities--
California, Massachusetts, Connecticut, Maryland, New Jersey. 
Many times you have issues where there is not a lot of 
interstate activity. So it is best left to States. But there 
are times when you do have interstate activity that can involve 
the Federal Government.
    But for these organizations, you know, READI Chicago, great 
example that you are pursuing here, and your focus on the idea 
that much of the gun violence in Chicago being the result of 
split-second decisions by traumatized individuals who have 
grown up surrounded by violence. Recognizing that many times 
the perpetrators of the violence were victims themselves.
    And Mr. Toure, your three-pronged solutions for safety 
education, legal education, conflict resolution education, 
those are all going to the heart of the reasons why violence 
has become so endemic not just in our cities, but across our 
society. I represent a district that is--some of it is more 
populated cities. Some of it is very rural. But the violence 
persists across demographics, across different situations.
    And so, working together, I think we can find these 
solutions and decide. Are some of them able to be replicated at 
the Federal level with funding, or are some of them--do some of 
them need to stay at the State level and just receive support 
from Federal, whether it is through funding or otherwise? But 
rather than us legislate, simply support the efforts that you 
are pursing.
    So I have got 1 minute left. Mr. Toure, since I ended with 
you, if you can talk about in particular, as an attorney, I was 
taught, I tried to teach my clients that ignorance of the law 
is not a defense. So you can't just go into court and say I 
didn't know that it was illegal. Judge, jury is not going to 
buy that.
    Can you talk about your education program there and how 
that is having an effect?
    Mr. Toure. Yes, so each--because we have been to all of the 
cities that everyone here lives in. I moved to Chicago for a 
month to do conflict resolution for a month. South Side, 
whatever side. Point being is, each locality is different.
    So the people in that particular locality--for example, in 
Philadelphia, you know, I have had guys 25 years old have a job 
at the bank, purchase a firearm lawfully, not knowing that you 
have to spend $20 to get a license to carry. Get pulled over, 
doesn't know the proper storage laws for that municipality. Now 
you have the felony charge. Now your life is pretty much over.
    So now that may be different from Philadelphia than it is 
for New Jersey, you know? So having lawyers specifically that 
are already connected to the community to come to these 
classes, as well as the firearms instructors, as well as the 
mental health specialists at our actual free events.
    Now they are not free. I mean, you know, this isn't a 
socialist thing. They are in a space where we want to remove 
the financial barrier to entry for beginners that want to come 
learn. So having layers there is a critical component of it.
    I am not an attorney. I cannot defend you, nor can I give 
you legal advice. But that lawyer that is at that class can. 
And so this is something that is standard at every single one 
of our classes all across the country for the last 4 years.
    Mr. Cline. Great solution.
    Ms. Bass. Representative Demings.
    Mrs. Demings. Thank you so much, Madam Chairwoman, for 
convening us together for this very, very important topic.
    Thank you so much to all of our witnesses as well for being 
here with us.
    What a subject. As a former law enforcement officer, this 
is a topic that I have dealt with more than I care to admit, 
and I thank you so much, as I look at the work that each of you 
are doing in this area.
    With that being said, Mr. Moore, in your community-based, 
on-the-ground work that you have been doing, could you just 
describe for us how important--as we talk about reducing 
violence, gun violence in our communities, could you describe 
for us just how important the relationship is between the 
police and the community? Having that strong relationships of 
trust and mutual respect.
    Mr. Moore. Thank you.
    It is critical on a number of levels. As it relates 
particularly to gender-based violence, when you think about 
particularly undocumented families who are afraid to call the 
police in those situations. When you have people who want to 
come forward with information, but they are not protected by 
law enforcement in terms of being able to show up in court, all 
of those things contribute to the ability to solve crimes and 
to address at least the backend of violence.
    And trust is critical, and it goes both ways. And so, when 
you have, you know, high incidence where trust breaks down in 
communities, where people either don't believe their law 
enforcement would be responsive or that if they are, 
particularly in a mental health crisis, that that person could 
be injured or killed as a result of calling for help, those are 
all factors that we hear about in our community that have to be 
addressed.
    And so the relationship is something that we look at as a 
public health issue, and so we work across all systems in our 
city to try to address that.
    Mrs. Demings. Thank you so much.
    And Mr. Bocanegra--I hope I didn't mess that up too much--
there is a lot of talk about State rights and, you know, is 
this a State issue? Is this a local government issue? 
Certainly, there are major roles to play in those 
jurisdictions.
    But why is it so critical do you believe, and look at the 
program that you have as well, it is pretty comprehensive--why 
is it so important for the Federal Government--if we are going 
to make great strides in this area in reducing violence in some 
of the most vulnerable communities, why is it so important for 
the Federal Government to have a major role in that process? 
And what do you see?
    And if you have already said this, I am so sorry to have 
you repeat yourself. But if you could have any wish at all 
today as it pertains to a role for the Federal Government, what 
would that be?
    Mr. Bocanegra. Well, the question was asked earlier, but 
now I have a little time to actually process the question. So I 
appreciate that.
    I think, you know, currently, we are leveraging--most 
cities are leveraging VOCA funds, which are under your 
jurisdiction. And many cities are able to leverage that, 
support families and individuals who have lost someone to 
violence and for individuals who are impacted by trauma as one 
case. I would encourage the folks in this room to continue to 
invest and to push for VOCA resources in the future as well.
    The second thing that I would ask this committee as well is 
that in addition to that, I think it is imperative for us to 
think about--and I am not a gun expert, and I am not here to 
debate that. As someone who has three other siblings who serve 
in the Armed Forces, I respect people's Second Amendment. But I 
will tell you this, that a lot of the people that I work with 
are being killed as a result of guns.
    And the reason why they carry guns is because of safety 
issues. Safety issues because of like their current situation, 
circumstances that they were living. So as much as I want to 
convince people to put their guns down or to maybe go through 
the legal process of purchasing a gun, the truth is that by the 
time our kids are--you know, our men, by the time they're 15 or 
16, they already have one or two gun offenses.
    On average, our program--participants in our program have 
18 arrests filed and felony convictions. There is no way they 
can purchase a gun legally. So I think about how do we create 
more safer communities as well, and I think that by doing so, 
we increase the economy in our cities, in our government. There 
are more people that look like me in places like this as well.
    And lastly, I would say, you know, I know there is a big 
push around criminal justice reform. As somebody who's been 
incarcerated, right, I could tell you that people who are 
formerly incarcerated could add a lot of value to our society 
and our community.
    Mrs. Demings. Thank you so much, Madam Chair. I yield back.
    Ms. Bass. Thank you. Representative Steube.
    Mr. Steube. Thank you, Madam Chair.
    I don't think there is a coincidence, to me anyways, that 
most of these big cities have very, very restrictive gun laws, 
yet they have the highest crime rates. And we can--I will first 
talk about Chicago, and then I would love to hear Mr. Toure.
    Mr. Toure. Right.
    Mr. Steube. Toure.
    Mr. Toure. Yes.
    Mr. Steube. Did I get it right that time?
    Mr. Toure. You got it.
    Mr. Steube. Okay. And I will ask for you to kind of respond 
and what your thoughts are on this. But just looking at 
Chicago, and you have very restrictive gun laws there. 
Washington, D.C., has very restrictive gun laws, but they have 
a very high homicide rate and gun violence rate. I don't think 
there is a coincidence there.
    But the other side of that argument would be, oh, people 
are getting their firearms from Indiana and Wisconsin. So these 
are factual numbers. So some facts on that.
    You have in 2015, gun murders per 100,000 residents in 
Wisconsin and Indiana were 2.9 and 3.2, while gun ownership 
rates were 34.7 and 33.8. This contrasts with Illinois, which 
had 3.4 gun murders per 100,000 and 26.2 ownership rates. 
Chicago's gun homicide rate same year was 25.1 per 100,000 
residents.
    So you have neighboring States where the gun laws are much 
restrictive and in my--I would say more freedom for law-abiding 
citizens, but they have more guns and less crime.
    Mr. Toure. Right. Right.
    Mr. Steube. So could you talk about that a little bit?
    Mr. Toure. Well, that is because some of the approaches 
aren't really about saving lives. You can't legislate evil. And 
I think what is happening is because a lot of communities have 
suffered from trauma, and that trauma is legit. I wouldn't be 
on this panel with this collective of people, understand we are 
in the community, right? So we are affected by that.
    But the problem is when you make legislative decisions for 
moral behaviors that don't solve the actual issue, that is 
wrong. That is wrong. John Lott--it is a book, ``More Guns, 
Less Crime.'' That is factual data.
    We cannot argue--I have friends, family members, loved ones 
that have been affected by this, but you know, the data is 
clear. Adding more rules does not save lives. Education does.
    Those areas that you are talking about that have equal or 
even more firearms, they also have a general culture of 
understanding of what your rights are as stated in the Second 
Amendment, but also what the responsibilities that come along 
with that. So that is a cultural and educational shift, as 
opposed to in those places like Philadelphia, Chicago, Compton, 
Detroit, the places that we go to regularly. Because there is 
not more education, openness about firearms responsibilities 
and rights, everything becomes taboo. That taboo means we are 
not going to discuss it.
    Perfect example for this, and it is somewhat similar, but 
it is a bit different. In the '90s, we had tremendous problems 
with teen pregnancy. Tremendous problems. We didn't like hide 
more, you know, talk less about sex. What we did was we talked 
more about sex and prevention, and teen pregnancy rates 
dropped. That is education.
    So in these places, when you just try to over legislate, 
which is a violation of our human rights and self-defense, that 
is clear, and then you ask for Federal Government to help to 
encroach on States rights, that is another clear-cut 
contradiction, that does not help. The solution is informing 
young people, just because a lot of these young men for the 
most part are ill-informed. They are not educated. It is taboo, 
and they still live in the same rough neighborhood like I live 
in, you know?
    So the answer here is more solution-based thinking in 
regards to educating. And I know it sounds weird when you say 
it. I know a lot of people say, well, you may be pro gun or you 
may be pro freedom. I think we all are. I don't think anybody 
is saying or genuinely saying we want to take something away 
from you, but you can legislate things away with an unintended 
consequence, you know?
    So the answer here, again based on the data, not my 
feelings, the basic answer here is educating people about their 
rights. When we have classes where guys are 19, 20 years old, 
and we educate them on, hey, these are your rights. If you stay 
on the straight and narrow, you can lawfully purchase firearms 
to participate in the shooting sports, you know, all of these 
particulars that go along with that, that young man is much 
more likely to stay on the right and narrow so when he is 21, 
he can lawfully have a license to carry. He can protect his 
home, his freedoms.
    And we are educating those people. The answer here is 
education, not more punitive damages for things that, again, 
like you said, the numbers are very clear.
    Mr. Steube. And I have only got 30 seconds left. So I will 
give it to you with one quick question.
    So how do you respond to people who accuse you of putting 
more firearms in their cities?
    Mr. Toure. Well, they are wrong, and that is the 
opportunity for us to educate. If someone thinks that, they are 
not familiar with all of the work that we do around healing and 
trauma.
    I am not having a conversation about firearms with anyone 
until I am having a conversation about safe and responsible 
ownership and mitigating trauma. If you come to our class 
because you are mad, it is not time for you to learn about 
firearms. And we invite those people to come into our actual 
classes.
    Mr. Steube. Thank you for your time.
    Ms. Bass. Representative McBath.
    Mrs. McBath. Thank you, Chairwoman Bass.
    And thank you so much to our witnesses today, and I 
somewhat actually had the opportunity to work with a great deal 
in the field over the several years that I have been working on 
gun violence prevention. But I kind of want to take a moment 
today to just kind of talk about a meeting that I had with some 
of my colleagues--Congresswoman Kelly, Congressman Clay, 
Congressman John Lewis, Congressman David Cicilline, and 
myself. We actually had a chance to go over to Senator Mitch 
McConnell's office yesterday.
    And we had the opportunity to go over and to speak with 
some of his very own constituents, gun violence survivors from 
his district, gun violence survivors, volunteers, activists 
from all over the State. We actually had a chance to go in, and 
they had a chance to tell their experiences of losing loved 
ones to murder, suicide, and also the shooting in Parkland, the 
shooting in Las Vegas.
    And they spoke about their injuries, the injuries that they 
bear that only not are physical injuries, but psychological 
injuries as well. One woman spoke of losing both of her 
children to gun violence in separate incidents more than a 
decade apart.
    And another woman spoke of two of her relatives a 
generation apart, that she lost both of them to gun violence. 
And we did talk about our failure to take action, which is 
leaving many, many generations in pain.
    And so many of these survivors, they are actually standing 
up now, and they are sharing their stories. And most, I have to 
say, unfortunately, are communities of color. Their 
communities, communities of color, are bearing a particularly 
heavy burden for the Senate's failure to address gun violence, 
for the Senate's failure to take up the legislation that we 
have already passed in the House to guarantee universal 
background checks, to fund gun violence prevention research, 
and to close the Charleston loophole.
    So I want everyone to understand that no one in this room 
is immune to gun violence. I know firsthand. I lost my son 
Jordon in the national loud music killing. No family, no place 
of worship, no school, no community is immune. And we owe it to 
every single American in this country to take action to keep 
them safe.
    And I applaud those of you that are sitting on the panel 
today, thank you for the work that you are doing in your 
communities to make a difference. You are taking action as we 
all wait for the Senate to finally take some serious action on 
saving lives.
    Ms. Goodwin, I would like to ask you a question. You know, 
there is a significant fiscal cost related to gun violence, 
which includes medical expenses, criminal justice costs, and 
lost income, most of which are borne by our taxpayers. How 
could we better invest so that we are getting a better yield 
for our taxpaying dollars?
    Ms. Goodwin. That is a great question, and just on talking 
about the costs, it costs upwards of $229 billion a year, just 
that is the impact of gun violence. What is not built into that 
cost, which is very important, is the cost of even shootings 
and violence that we don't know about that isn't reported or we 
don't have the research on, or people that actually may not 
even go to the hospitals.
    The hospital cost itself is $2.8 billion. And so, you know, 
one night in the hospital--and I know that there are survivors 
here in the audience, too, that I want to recognize--it is 
about $95,000 per night to stay in the hospital if you have 
been shot or injured.
    And so I think the cost savings for what a lot of us are 
talking about actually pays for itself, and we can look at what 
some of the States have actually been able to do. And I do 
think that there is a role either cross-jurisdictionally, we 
have seen some cities, we have seen some States, we have also 
seen some counties actually take initiative to reduce gun 
violence specifically in communities of color. And most of it 
has to do with funding, but it does have to do with healing, 
and it does have to do with looking at the entire life cycle of 
gun violence.
    So I will just say a couple of States very quickly. In New 
York State, of the last available data that we do have, the 
State spends around--the actual State government, about $20 
million. But the cost of gun violence is around $5.6 billion. 
So we know that if you actually invest, in Massachusetts, they 
save about $7 for every $1 spent in the State of Massachusetts, 
which is the State that has passed legislation.
    Legislators came together and said how can we solve 
violence that is happening in our inner cities and in our 
communities? And so what we do know is that there is a cost for 
gun violence, and we can look and kind of talk and have those 
conversations for how much each shooting costs. And there is 
incredible research that is being done around the country from 
people like Pastor Michael McBride, DeVone Boggan, and David 
Muhammad out of Oakland on what is the exact cost per shooting.
    In some cities, it is over $500,000. In some cities, it is 
$1 million. And so there is an inherent cost that taxpayers are 
having every time someone is shot and survives. The disability 
community has been impacted every single day and sometimes do 
not have access to things like VOCA funds. So there is a huge 
cost of gun violence, but there is also an even less cost of 
actually doing something and taking action specifically on 
these programs that we are talking about today.
    Mrs. McBath. Thank you so much.
    Ms. Bass. Number-one reason why young men are in 
wheelchairs is gunshot wounds.
    Representative Gohmert.
    Mr. Gohmert. Thank you, Madam Chair, and thank all of you 
for being here.
    Just seems from observing that all of you, all four of you 
seem to have a heightened sense of right and wrong, a 
heightened sense of wanting to help others, and to make this 
world a better place. I greatly appreciate that. Appreciate you 
being here.
    Mr. Toure, you have talked about the classes that your 
organization provides, and it sounds like those were immensely 
helpful. I am wondering, are there any classes on parenting?
    Mr. Toure. Yes. So, one, we have groups--we usually have--I 
will give you a perfect example. We have had generations, 74-
year-old grandmom, mom, granddaughter come to our classes the 
first time, to help with parenting and create scenarios there, 
as well as those are first time people have ever held a 
firearm, knew about what it was, so forth and so on.
    I think the bigger portion of that, again, because I know 
we are having a conversation about gun violence, or violence in 
general, but we are also having a conversation about culture 
shifting back in the direction of a nuclear family scenario.
    Mr. Gohmert. Yes.
    Mr. Toure. These are the conversations that we have----
    Mr. Gohmert. So we talk about nuclear families?
    Mr. Toure. Absolutely. So we----
    Mr. Gohmert. Because we talked about improving the poverty 
situation.
    Mr. Toure. Right.
    Mr. Gohmert. And the surveys seem to indicate very clearly 
you got a better shot at not living in poverty, regardless of 
race, if you have a nuclear family.
    Mr. Toure. A structure. Right. So I have a friend who does 
this event called Aiming for the Truth, and he famously says 
how, you know, you show someone in parenting how, okay, I am a 
parent. This is my wife. This is my--you know, or my husband, 
and these are our children. That is the equity for your family, 
right? You build that equity up.
    Firearms and the Second Amendment, safe and responsible 
ownership is how you defend that equity, okay? So these are 
things that we deal with at our classes.
    Again, every one of the panelists today have made this 
clear in the sense of--and I don't want to sound so ``broken 
recordish,'' but this is a holistic approach. The only area 
that we may have some sort of disagreement is the lack of 
legislating or asking more people as more so than education.
    So the parental component of that is definitely in our 
classes at every single one.
    Mr. Gohmert. It sounds like what you have been teaching is 
immensely helpful, but I think about John Adams when he became 
second President. He made the statement talking about our 
Constitution. This Constitution is intended for a moral and a 
religious people. It is wholly inadequate for the government of 
any other.
    So it constantly occurs to me if we are not going to get 
back to teaching right and wrong----
    Mr. Toure. Correct.
    Mr. Gohmert [continuing]. And the best place for that seems 
to be in the home, then we are going to end up not only getting 
rid of the Second Amendment, we can't have freedom of assembly 
because there will be problems. Freedom of speech, we got to 
cut that out. It only works if people are taught about right 
and wrong.
    Mr. Toure. Our classes deal with morality and understanding 
what those high levels of morals are. Again, as I said earlier, 
you cannot legislate morality. It has to be educated. It has to 
be cultural.
    We have to have a paradigm shift in these regards that 
makes a young person, like the brother said, not even want to 
pick up a gun to be violent in the first place. Or a knife. Or 
a bat.
    Mr. Gohmert. Well, right. Like in Rwanda, they didn't have 
guns hardly, but they had enough machetes to kill 800,000 
people.
    Mr. Toure. Right, right.
    Mr. Gohmert. Mainly with machetes. It is the evil that is 
in the heart that needs to be stopped.
    Mr. Toure. Right.
    Mr. Gohmert. But I saw it over and over as a felony judge, 
the thousands of cases that came through my court. So often, 
there was no father or a mother was working three jobs, and she 
wasn't around as much because she was trying to do what she 
could.
    And it--regardless what you think or just like anybody 
about the Bible, I found it intriguing, I believe. But 
intriguing, the last verse of the Old Testament before it is 
silent for 400 years is talking about the end. ``When He comes, 
He will turn the hearts of the fathers back to the children and 
the hearts of the children back to the fathers.''
    And it just seems like when those are out of synch and 
fathers don't care, we are in trouble.
    Mr. Toure. Correct.
    Mr. Gohmert. And I appreciate all that you are doing to try 
to make this a better place and hope we can work together 
toward that.
    Thank you very much.
    Mr. Toure. Thank you.
    Ms. Bass. Representative Deutch.
    Mr. Deutch. Thanks, Madam Chairman. Thanks for holding this 
hearing.
    I represent Marjory Stoneman Douglas High School in 
Parkland. Parkland, one of the safest communities in the 
country until 17 people were gunned down and 17 others were 
injured. And the kids, the survivors who started March for Our 
Lives, knew enough to address what Representative Clay referred 
to earlier as the ``slow motion mass shootings'' that are 
taking place in communities all across our country.
    And they knew enough to try to build a movement by going to 
L.A. and Chicago and Milwaukee and meeting their peers and 
engaging around the issues that we are talking about here 
today. They did a great job causing the conversation to 
continue about school shooting, but we have dropped the ball 
when it comes to the conversation that we need to be having 
today, which is why I am so grateful to the chair.
    Look, we have got to pass Representative Kelly's bill on 
straw purchasers and gun trafficking and deal with illegal 
guns. And we have to pass Representative Moore's bill on 
community-based approaches.
    But I want to, Mr. Moore, just go back to those photos you 
held up because it says something really important about why we 
are here. That picture of Sandra Parks, who you said was 13 
when she was struck in her own bedroom in 2018, and that other 
picture you have of Quanita Tay Jackson, who was 20, who was a 
peace activist who was caught in a crossfire of two cars 
shooting at each other.
    And that other photo you have of 5-year-old Laylah 
Petersen, who was killed while sitting on her grandfather's 
lap. And these other photos that you have submitted, the 9-
year-old Za'Layia Jenkins, who died while inside a relative's 
home, and Bill Thao, 13 months, was playing on the floor of a 
relative's home. And 6-year-old Justin Evans Jr. in his 
grandmother's yard. And 3-year-old Brooklyn Harris shot and 
killed inside a car.
    Let us be honest. There is just no question that if these 
horrific attacks were happening every single day, people dying, 
little kids dying on the floor of their home or sitting on 
their grandpa's lap or getting ready to go fishing, if they 
happened in other communities, we would be talking about them 
all the time.
    And--and the reason this is so--this hearing is so 
important and the fact that you are here highlighting the work 
you do is so important is because we have got to deal with gun 
safety, and that is a big piece of this. But your focus, Mr. 
Bocanegra and Mr. Moore, and the work that you do, Ms. Goodwin, 
too, on not just the gun issue, but the need for community-
based solutions, recognizing that we have got a gun violence 
problem.
    And we also have an enormous problem with poverty and 
trauma and economic opportunity, lack of economic opportunity 
and mass incarceration. And that needs to be on the table every 
day, too.
    And Mr. Moore, your proposal or the plan that you submitted 
for the record, I think we all need to focus on. You walked 
through all kinds of really important things that we ought to 
do, and you talked about their risk factors, lack of housing 
and segregation and harmful norms creating a culture of fear 
and hopelessness, and limited employment opportunities. That 
has got to be--that has got to drive this debate, too.
    And so I guess my question for you is when half the dais 
comes to Milwaukee next summer, and we have an opportunity to 
highlight the really important community-based work that you 
are doing, what do you want to take us to see? What is it that 
we want to make sure the world pays attention to so that when 
we return from that, we will be further informed and empowered 
to do the kinds of important work that we are talking about 
here?
    Mr. Moore. I am going to need more than 30 seconds to 
answer that. But definitely, the Blueprint represents the 
hopes, dreams, aspirations, and ideas of the entire community. 
We interview thousands of young people who are part of the 
process. Law enforcement, hospital leaders, they are grassroots 
folks who are doing things every day.
    We hear the stories about the pain and what is not working. 
There is a lot that is happening in our city. Tay, for example, 
organized a basketball tournament in the park that she was 
killed in the next day on a day of a love. And that was 
organized by community members who wanted to elevate love in 
the city.
    And again, although she wasn't targeted, rapid gunfire in 
our city often fired by semiautomatic weapons are taking the 
lives of children in our city every day. But we are also 
fighting back and taking a public health approach to solving 
this issue.
    Mr. Deutch. Madam Chairman, I am really, really grateful 
for today and for our witnesses being here today. And I hope 
that we can do many more hearings like this to keep this issue 
front and center as a major part of what we do.
    Ms. Bass. Absolutely. And when we are finished, I am going 
to ask the chair if--the chair and the ranking member, if they 
will allow us to visit some of your communities so that we can 
go in a bipartisan fashion and see what communities are 
actually doing to solve the problem.
    Representative McClintock.
    Mr. McClintock. Thank you, Madam Chairman.
    We have been at this now for 50 years, debating these 
issues, and over the years, we do have experience with a lot of 
policies that have worked and a lot of policies that haven't 
worked. And it seems to me we ought to be approaching the issue 
in that manner.
    And I pointed out that in those 50 years, we have adopted 
many, many gun control laws that we didn't have back in those 
days, in the '60s and before. And you would think that if the 
gun control laws were a solution to the problem, the problem 
would at least be getting better by now, not getting worse. But 
it is clearly getting much worse.
    You know, I pointed out that in those 50 years we 
discovered that gun control laws are very effective at 
disarming law-abiding citizens. They, by definition, obey those 
laws. The problem is they have been very ineffective at 
disarming criminals and madmen and terrorists.
    In response to that argument yesterday, Ms. Jayapal said, 
well, of course, criminals don't obey laws, but that is not an 
argument for not having any laws. And it struck me what she and 
others seem not to be able to grasp is that gun control laws 
are unique. When law-abiding citizens obey gun control laws, 
they render themselves defenseless against the very criminals 
who don't obey these laws, and we end up creating a society 
where law-abiding citizens are defenseless and criminals are as 
well-armed as ever.
    That is a very unstable, very dangerous, and very violent 
society. And I don't think it is a coincidence that so many of 
these incidents occur in so-called ``gun-free zones,'' where 
criminals and terrorists and madmen all know law-abiding people 
can't fight back.
    Mr. Toure, you mentioned one of the things that has changed 
is obviously we have seen a big change in the culture over 
these past 50 years. But it seems to me another thing that 
changed is when somebody went out of their way to warn us that 
they were out of their minds and ready to do violence to 
others, we took them at their word.
    Mr. Toure. Right.
    Mr. McClintock. We committed them in mental institutions 
where we could treat them, care for them, and keeping them from 
harming themselves or others. We have emptied out those mental 
hospitals over the past 50 years, and one of the most common 
situations that we see in so many of these massacres is the 
person was out of his mind.
    Mr. Toure. Right.
    Mr. McClintock. They went out of their way to tell us they 
were out of their mind. We knew it, and we just didn't do 
anything about it. We used to, but we don't anymore.
    Mr. Toure. Correct.
    Mr. McClintock. We are in the business of making public 
policy. What would you recommend to us, what changes in laws do 
we need to make in order to bring this crisis under control?
    Mr. Toure. Well, for one, we have a lot of those laws 
already on the books. First, I want to say--well, he is gone 
now. But to the family members, he brought up Parkland, and 
that young man, first and foremost, to all of the families and 
victims of that, you know, our energy, support, love is 
consistently with them, among others. Not just Parkland, 
Chicago, Detroit, North Philly where I am from as well.
    In that scenario, you had someone who was--had the police 
called on him over 30 times, you know? Thirty-eight, if I am--
you know, don't quote me too hard. But you have someone that 
clearly had an issue. And in that space where we are trying to 
make sure that we look like we are actually safer than we 
actually are, you know, the coward of that particular county, 
they had a standing practice of ignoring some of those things, 
and unfortunately, it cost 17 lives.
    So my answer to that is I think we have the laws already in 
place. I think that people are not following those or executing 
them properly for their own whatever their individual or 
collective reasons are.
    Mr. McClintock. Well, then please tell me, at least in 
California--each State may be different. But tell me they are 
powerless to act until a person they know is dangerously 
mentally ill actually goes out and commits a crime. Then they 
can arrest him. Then they can get them away from society.
    Mr. Toure. Now there is the----
    Mr. McClintock. But it used to be that they could get them 
committed, get them treated, and keep the rest of society safe 
from them and keep themselves safe from themselves.
    Mr. Toure. I think we are still talking about something 
more community-based. You know, there are also issues of a few 
weeks ago, maybe a few months ago at this point, where the 
grandmother saw that the grandson was about to do something 
silly with a firearm. A grandmom, a nanny, right? A nana got 
involved and stopped that young man from doing things.
    This is going back to the conversation about morality. This 
is going back to the conversation of community development. 
This is the same type of holistic approach that we are talking 
about today.
    But where we are wrong is when we are ignoring those things 
for legislative or fiduciary reasons. I think that we all know 
that these are issues, and I think sometimes the things that I 
have done. You are going through a divorce. You have a lot of 
guns. Hey, man, let me clean your firearms for you. You got a 
bunch of them. Let me clean them for you for a while. Cooling 
period.
    That does not have to include more legislation. That is 
community involvement.
    Ms. Bass. Thank you. Representative Dean.
    Ms. Dean. Thank you, Madam Chair, and I am so glad you 
convened this important hearing.
    And I am struck by the conversation that just took place 
because really what it, I think, advises all of us is we should 
pass immediately red flag laws. Absolutely, we should have the 
ability to interfere, to intervene to save lives. To say you 
are in grave danger. You are having a crisis. You are not 
somebody who was 302'd sometime in your past. You are in the 
midst of a crisis. Let us help you.
    We know that the Charleston shooter, what happened there 
was his friend knew he was in grave crisis, took his gun away 
when he had gone into a terrible binge drinking episode. But 
fearing for his own liability, the friend gave the gun back.
    So you have made an eloquent argument for red flag laws.
    Mr. Toure. No.
    Ms. Dean. I also want to point out----
    Mr. Toure. Not at all. [Laughter.]
    Mr. Toure. Not at all. I respect----
    Ms. Dean. So I also want----
    Ms. Bass. Excuse me. Excuse me. The representative is 
speaking.
    Ms. Dean. The other fallacy, the myth that we just heard 
over and over again, and Madam Chair, I hope maybe we can dig 
into this some more, which is bad guys are never going to 
follow the law, so you can't--guns is different. It is a 
different topic.
    I come from Pennsylvania, and the Pennsylvania State Police 
have the Pennsylvania Instant Check System. It is layered over 
top of the National Instant Check System. It is actually 
stronger because it doesn't have a 3-day default to sell the 
gun. It has a waiting period, and you cannot default sell the 
gun until you get clearance.
    What that--what the data shows, not the myths, but what the 
data shows is that in a single year, 12,000 prohibited 
purchasers attempted background checks to buy guns, and they 
were declined because they were prohibited purchasers. So 
sometimes bad guys, prohibited purchasers will try to follow 
these laws, and the laws work. Background checks work. We need 
to make it universal.
    I think I would like to pivot from that to just talk about 
the issue of suicide. I was thinking the numbers are so 
staggering. Forty thousand people a year die of gun violence in 
this country. More than half of those, 20,000-some are gun 
violence suicides.
    Another 134,000 people are literally wounded caught in the 
crossfire. Think about that. Recently, at a hearing, I was 
asked does that 134,000 identify people who are actually 
traumatized, never touched by the bullet, but traumatized. And 
of course, it doesn't.
    So I think let me start there. Mr. Bocanegra, could you 
talk to that issue of suicide? We know that suicide rates are 
up. Suicide rates, tragically, in all areas, whether it is 
veterans, our youth, black males, people who are poor and 
struggling with debt, suicide is up.
    Can you talk to the issue of suicide, gun violence suicide, 
and also the trauma?
    Mr. Bocanegra. So I am not an expert in that area, so I 
might defer to one of my colleagues here. But I would say this 
from experience. I have had the pleasure of working with 
veterans, United States combat veterans. And I could tell you 
that, unfortunately, we have lost some veterans along the way 
because of suicide. And not just PTSD, but moral injury 
specifically.
    The second thing that I would say is that my wife, Kathryn 
Bocanegra, for about 10 years has worked with families who lost 
their children to violence. And while we don't work with 
families who lost their kids to cancer or any of that, 
specifically the trauma that comes with someone who lost 
someone to violence, including suicide, needs a different kind 
of level of support as well for the surviving family members.
    And lastly, when I started my opening remarks, you know, I 
wish I had more time to have spoken on this. But when I was 17 
years old, about to turn 18, I was going to sign up with the 
Marines. And I was going to sign up for the Marines because I, 
by that time, witnessed too many of my friends shot and killed, 
all of them gang members, including myself being one.
    And I told myself, if I die, I want, at the very least, my 
parents to be proud of the fact of who I was as a person. So I 
was going to join the Marines knowing that I was going to get 
killed. And so I didn't know this until grad school, but every 
time that I went to a rival gang without a weapon, and I 
antagonized the other gang members to shoot me, those are 
suicidal ideologies behind that. And many young black and brown 
people actually experience that, but we don't talk about that 
as well.
    And so when I think about the program that we are managing 
in Chicago and other programs alike, I think about how relevant 
trauma is. And unless it is--if we don't cure that, if we don't 
give it the proper attention that it needs, we will have an 
increase in those suicides in the different ways that typically 
we don't speak on.
    Ms. Dean. Thank you. And I----
    Ms. Goodwin. I can speak really quickly on that, the 
suicide rate.
    Ms. Dean. Thank you.
    Ms. Goodwin. So, and this comes out of the Journal--I know 
we don't have too much time--Journal of Community Health 
earlier this year. Suicide rates are the second-leading cause 
of death of black children between the ages of 13 and 19. And 
this is taking the rate from 2001 to 2017. It is a 60 percent 
increase.
    So I am going to say that again, 60 percent increase from 
2001 to 2017 of black boys between the ages of 13 and 19. It is 
182 percent increase for black girls between the age of 13 and 
19. The number one for black boys' way of dying by suicide is 
with a firearm.
    So there is an increase that is not steadily increasing. It 
is happening very fast in our communities.
    Ms. Dean. I can't say the words thank you, but I thank you 
all.
    Ms. Bass. Ms. Mucarsel-Powell.
    Ms. Mucarsel-Powell. Thank you, Chairwoman Bass, for 
holding such an important conversation. We know that gun 
violence is an epidemic. It is a public health epidemic that is 
affecting our communities all over the country.
    I actually represent a portion of Miami-Dade County. And in 
South Miami-Dade, we have some of the highest rates of gun 
violence in the entire county for kids under the age of 18. So 
I think that gun violence is now affecting all people. It is 
affecting people that are trying to go about their everyday 
lives when they go shopping at the mall, when they are 
worshipping in churches, when they go to movie theaters, 
nightclubs. But I think we need to accept the fact that it 
disproportionately affects communities of color, and we have 
seen the facts.
    And I want to echo what my colleague mentioned earlier, 
Congressman Deutch, that we need to address the systemic issues 
of the cycle of poverty, lack of economic opportunity, and also 
we need to take action here in Congress to pass common sense 
gun reform.
    I mean, you are talking about a high rate of suicide among 
teens. And in my district, in my community, we have two huge 
gun shows where teenagers can go to the parking lot and get 
guns from other private citizens that are purchasing these 
arms. So there are a lot of things that how we can address 
reducing gun violence in our communities, but I do want to 
highlight some of the programs that I have seen that have 
helped.
    We have--I have gotten to know my constituent who I now 
call my friend. Her name is Romania Dukes, and she lost her son 
to gun violence in my community. Michael Dukes was only 18. He 
was hanging out with his friend when he was killed. He was hit 
by a stray bullet fired during an argument that had nothing to 
do with him.
    And this tragic and senseless instance of gun violence led 
Romania to take her pain and take action to help others. And 
she started this organization called Mothers Fighting for 
Justice. Romania's organization works to educate young teens 
about the dangers of gun violence. It has initiatives to build 
relationships between the police and the communities so that 
they can build trust. It highlights local leaders that help 
reduce crime and violence among the younger generation. And I 
think that these type of initiatives are so important to 
helping our communities.
    I also want to mention South Dade Major Charles, who has 
been dealing just in the past 2 weeks with several shootings in 
our community. And he brought out to my attention something 
very interesting that I don't think we talk enough about, and 
it is how do you monitor young teens to--through social media 
that are communicating through social media, getting arms from 
each other, organizing crime. And it is just something that I 
want to bring up since we are talking about this.
    But my first question is to Mr. Goodwin. Mr. Goodwin, you 
have talked about these community initiatives as being so 
important--or Ms. Goodwin, sorry. What do you think we can do 
here in Congress to facilitate these programs and raise more 
awareness?
    Ms. Goodwin. I think one of the biggest, the ask that I 
would have is that you look at the data and the evidence. And 
you know, it was said earlier today by the chairwoman, there is 
evidence in research from every almost Ivy League in this 
country that looks at the programs that you will hear about 
today or you heard about today that says that they are 
effective, and it says that they can dramatically reduce gun 
violence, mostly homicides, in places upwards of 60 to 70 
percent.
    So this isn't us kind of throwing things around. This is 
the data and the research that says that it works. What we 
don't have and what we have had to do is we have had to over 
rely on philanthropy or good-meaning people who want to give 
money to the organizations that you may hear about today. And 
so we do need resources from the Government, and we do need 
statutory legislation that actually makes sure that this 
legislation won't go away, regardless of who is in office.
    A lot of places, and I am sure Reggie can speak to this as 
well, a lot of the work that has happened has, you know, has 
lasted through different mayors or through different people on 
city council. And so we need a codified law that actually looks 
like this at a department. Like he works within and works with 
the Department of Health, and so we believe that we need to 
have codified into law a department to specifically work on 
violence prevention in communities of color that actually works 
with people on the ground in the front lines of this.
    And then we need Federal dollars that can go into those 120 
cities that we mentioned earlier this year that have the high 
rates of homicide.
    Ms. Mucarsel-Powell. Thank you. And Mr. Moore, do you want 
to comment on that?
    Mr. Moore. Yes. I want to talk about a very specific 
intervention called 414Life that we have launched in 
partnership with our Level 1 trauma center, Froedtert Hospital 
and the Medical College of Wisconsin, where we have hired folks 
from the community to interrupt the cycle of retaliatory 
violence.
    Most of the shootings in our city are related to arguments 
and conflict. And so having folks with the street credibility 
to be able to detect and intervene and stop the transmission of 
violence is a public health approach that is showing results. 
Right now, we are 15 percent down in homicides and 20 percent 
down in nonfatal shootings as of today.
    Ms. Mucarsel-Powell. Thank you so much. I yield back, Madam 
Chairman.
    Ms. Bass. Representative Cohen.
    Mr. Cohen. Thank you, Chairman Bass, and thank you for 
calling this hearing, which is so important.
    My State of Tennessee, and particularly my City of Memphis, 
which is most germane to me, heavily impacted by poverty and by 
violent crime. A recent study by the Violence Policy Center 
cites that Tennessee has one of the highest rates of homicide 
of black victims in the Nation and that African Americans are 
disproportionately reported as victims of homicide.
    In Tennessee, there were 323 black homicide victims in 
2016, and 87 percent of them died after being shot. Nationwide 
in 2016, although African Americans only represent 13 percent 
of the population, homicide of black residents made up 51 
percent of all respondents to the reports.
    This is an epidemic that has long-term implications. A 
local publication in Memphis, the Daily Memphian, which is 
online but is kind of in lieu of a daily newspaper, or in 
addition thereto, I guess, recently published a three-part 
series of the impact that constant stress and trauma has on the 
brains of young people.
    Research showed that prolonged stress and trauma can impair 
the normal development of a child's brain and erode a child's 
immune system. Children who experience chronic stress, trauma 
in their first childhood experiences become more prone to 
violence, aggression, depression, substance addiction, suicide, 
illness and disease, not to mention academic failure. There is 
a definite need for more Federal resources to help combat this 
issue.
    And at this time, I would like to introduce that Daily 
Memphian report to the record and the Violence Policy Center 
report, as well as----
    Ms. Bass. Without objection.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Mr. Cohen. Thank you.
    I introduced H.R. 3738, the Safer Streets Act, which would 
create a new grant program to help reduce violent crime in our 
communities. Specifically, the act would provide grants to 
units of local government that have crime rates twice the 
national rate. Fifty percent of the grant funding would be 
reserved for units of local governments with crime rates 4 
times the national average, 20 percent would go to units of 
local government with crime rates 3 times the national average, 
and 10 percent to those crime rates twice the national rate.
    I think it makes sense to put the money where the problem 
is. The remaining funding would be reserved for emergency 
grants to help address spikes in violent crime.
    It is unfortunate, I read yesterday that one of the bills 
that I voted for in this committee and was kind of proud to do 
because I had to overcome my resistance to voting for something 
that the proponents of were not my favorites, but you try to do 
what is right. And that was the FIRST STEP Act.
    And then I read that the Leader said that he didn't want to 
use it in his campaigns. It was a loser and that he regretted 
somewhat him being behind it because he hadn't got the credit 
he deserved, and the people who liked it, like Van Jones, liked 
him for a day and then didn't like him afterwards.
    We need to be doing things that address these problems and 
not worry about somebody kissing your shoes or kissing your 
posterior or patting you on the head. That is a problem we have 
got in this country.
    Mr. Moore, let me ask you. If States and localities were 
given more Federal funding, how would you recommend it be spent 
to truly help solve the problem?
    Mr. Moore. Thank you. And I want to also underscore that 
Wisconsin has the second-highest black homicide victimization 
rate, which I think is highlighted in one of the reports you 
presented from the Violence Policy Center. So this is a racial 
justice issue as well.
    Particularly as it relates to funding public health 
approaches to violence prevention, one of the things that could 
be supported is 414Life, as an example. You know, we need all 
the support that we can get on that, both from the local level, 
the State level, but also if there are Federal resources that 
could support training and engaging folks in conflict mediation 
and de-escalation, which it seems like there is agreement for 
that among this panel. That is something that could 
substantially help.
    I also want to underscore on the prevention side because I 
see that more on the intervention. On the prevention side, 
there is also funding after school. When you look at cuts to 
the 21st century community learning centers, funding those 
types of programs are also important. Youth employment is also 
an area of focus that should be strengthened as well.
    Mr. Cohen. Let me ask you this, Mr. Moore, and I may be 
presumptive here because of where you are from. But are you 
going to be for the Brewers or the Nats? [Laughter.]
    Mr. Moore. The Brewers all day.
    Mr. Cohen. Well, I hope you have an awful October the 1st. 
[Laughter.]
    Mr. Cohen. I yield back the balance of my time.
    Ms. Bass. We will close out with Mr. Jeffries.
    Mr. Jeffries. Thank you, Madam Chair, for convening this 
hearing.
    I want to thank all the witnesses for your presence here 
today.
    Let me just start with Ms. Goodwin. I think you said in 
your testimony that black, Latinx, and indigenous people, of 
course, make up a disproportionate amount of gun deaths due to 
homicide, interpersonal violence, and domestic violence. Is 
that right?
    Ms. Goodwin. Yes.
    Mr. Jeffries. And I think you also testified that black men 
make up 6 percent of the U.S. population, yet account for more 
than half of all gun-related homicide victims in America. Is 
that right?
    Ms. Goodwin. Yes.
    Mr. Jeffries. And you know, from an explanatory standpoint, 
every gun-related death is a tragedy in America. The mass 
shootings tend to get a disproportionate share of attention, 
but the day-to-day violence is just as consequential, as 
hurtful, as devastating to individuals, to families, and 
communities. And so if you could just lay out for me briefly 
how you think we can take steps to address that day-to-day gun 
violence disproportionately impacting, as you pointed out, 
black and Latino individuals?
    Ms. Goodwin. Yes, absolutely. So I think having a 
comprehensive approach--and I know that kind of sounds like a 
buzzword. But all of the programs, almost everything that was 
addressed today, whether it is suicide, trauma, most of the 
programs that most of us work on actually address and hit on 
every single thing that you heard about.
    In Oakland, in Boston, in Chicago, in places across the 
country, across the South, they are actually building in 
comprehensive approaches that have healing counselors that come 
to whenever there is a rapid response. Erica Ford in New York 
City, she has a bus that actually goes around to different 
communities after there has been mass tragedy happening in 
communities of color.
    And so I think that comprehensive approach, but I also want 
to make sure that I add into that comprehensive approach really 
making sure that when we look at the homicide rate in this 
country of a little over or almost 8,000 homicides of black 
folks in this country, a large number of that is not women, but 
women are being killed and getting killed by firearms, 
especially black women.
    And so I think that is also part of what we need to build 
into a lot of the comprehensive approaches that we see in 
cities and counties and States.
    Mr. Jeffries. Thank you.
    Mr. Moore, it is my understanding that there are roughly--
or the United States has roughly 4 percent of the world's 
population, but about 40 percent of the world's guns, and so 
that translates into over 300 million guns circulating 
throughout America with law enforcement not really having a 
handle on who has those guns, who may get access to those guns 
in an unlawful fashion or in a fashion that may result in 
someone doing harm to the American people.
    And while we want to balance, of course, the interest 
inherent in the Second Amendment and the right to bear arms, 
the Supreme Court, in a decision written by Justice Scalia, 
indicated that reasonable regulations are constitutional and 
within the purview of the Congress to move forward in the best 
interests of the safety and security of the American people. So 
I would be interested in your thoughts, being in a State like 
Wisconsin that I believe has not been very proactive in terms 
of its gun violence prevention policies, operating within that 
context in Milwaukee, what have some of the challenges been?
    Mr. Moore. I think--and I stated in my remarks earlier that 
there has been an overreliance on punishment as opposed to 
prevention. And again, we work with families where we 
understand that accountability is the first step to healing, 
brings them to justice and people being, you know, found as far 
as perpetrators.
    Unfortunately, there has not been an equitable investment 
on the prevention side. And so at the State level, for example, 
we are trying to push for a comprehensive policy plus resources 
as it relates to gun violence prevention from the State to 
support municipalities, particularly Madison and Milwaukee, who 
have the largest populations, in dealing with this issue.
    The other piece is looking at gun tracing. And so 
understanding to time the crime in terms of where guns are 
coming from and understanding that there are dealerships, gun 
dealerships, 5 percent of them account for 90 percent of the 
crime guns that are found. And so really addressing that issue 
of the flow of firearms, both legal and illegal, into our 
community.
    Mr. Jeffries. Well, thank you very much.
    And Major Toure, did I get that correct, your title?
    Mr. Toure. Yes. Toure.
    Mr. Jeffries. Toure, you--I think you sell T-shirts on your 
website. Is that correct?
    Mr. Toure. Yes.
    Mr. Jeffries. And one of them is ``Make the 'Hood Great 
Again.'' Is that right?
    Mr. Toure. Absolutely.
    Mr. Jeffries. And what is your recommendation as it relates 
to how that actually would be brought about?
    Mr. Toure. You do that by having a respectful balance 
between mitigating and preventing against trauma like this, as 
well as preserving freedoms. I think that we make the mistake 
when we lean, just like Mr. Moore said, when we lean so heavily 
on legislation and adding more punitive measures, more so than 
preventing, you know?
    So I think that is one of the primary ways, when we strike 
that balance between mitigating the trauma, educating people, 
while preserving freedoms. And I think that is definitely how 
we make the 'hood great again.
    Mr. Jeffries. Thank you. Madam Chair, I think I am out of 
time. I yield back.
    Ms. Bass. Representative Jackson Lee.
    Ms. Jackson Lee. Ms. Chairman and Ranking Member, thank you 
for your courtesies, one from the great State of California and 
one from the great State of Texas.
    I rushed back here because I think you all are part of the 
most important hearing that we may be holding on the Hill 
today. There are many things going on. But what we are trying 
to do here is saving lives.
    Let me first start with this detrimental concept from the 
schoolhouse to jailhouse--forgive me for the answers you may 
have already given. I see that as a pathway to the loss of life 
of young people.
    Some years back, before it became duck for an active 
shooter, school systems in States began to think the way you 
deal with children is you assess them for truancy, you assess 
them for gum chewing, and I say assess them, penalize them 
criminally for gum chewing, for making an outburst, for 
stomping out of a classroom, and you begin to define who they 
are.
    Would you just go down the row and answer that question of 
what that begins to do in a child's life, when they start out 
in school like that even as young as 5? Mr. Bocanegra. Forgive 
me, Eduardo.
    Mr. Bocanegra. I need a second or two to think about that. 
That was a really heavy question.
    Ms. Jackson Lee. All right. Mr. Moore.
    Mr. Moore. I think when we look at the trauma that has been 
produced and we further traumatize young people, you may have 
heard about some of the issues we have had in Wisconsin with 
Lincoln Hills, where we took young people who had been harmed 
and put them in a place that caused more harm for longer 
periods of time, and we expected them to return back to the 
community feeling stronger and safer.
    Unfortunately, that is not what prison incarceration 
produces. And we have to have a serious conversation about how 
we are treating young people not just when they do something 
wrong, but way long before that, and understand the fact that 
there is research out there that states that confining young 
people does not produce better outcomes for them long term.
    Ms. Jackson Lee. Thank you. Mr. Toure.
    Mr. Toure. Famous quote. You know, it is easier to build 
strong children than to repair broken men and/or women.
    It is easier to build strong children than to repair broken 
men or broken women. You know, I am paraphrasing that part. I 
think from the school perspective, I think, again, the answer 
is very clear. It is less punitive. An ounce of prevention is 
worth more than a pound of cure.
    And I think that in something as extreme that is clearly an 
issue that we have in our Nation today, something as extreme as 
firearms, we have to take that same approach and educating and 
changing the thought process around this seemingly taboo 
subject to prevent more death and more trauma. So, for me, it 
is education more so than just only, you know, punitive 
measures.
    Ms. Jackson Lee. So I am going to ask a question, Amber, in 
the mix so that I get my question in. My goal and vision has 
been, working with this great committee, to overhaul the 
juvenile justice system with omnibus legislation that deals 
with complete alternatives for juveniles when they have to be 
in the system at all.
    So incorporate in your answer the idea that where you place 
a child, if you have to place them, really reflects on what 
will happen to them. We introduced the anti-bullying juvenile 
block grant money as an anti-bullying, prevention of bullying. 
Not enough money, I believe. But the point is, is that it was 
in the Department of Justice to give organizations money to try 
to deal with this.
    So what is the need, adding to the question I have, for the 
overhaul of what they call the juvenile justice system--
detention, indefinite stays--as relates to your work and as 
relates to changing the lives of children? Is it on?
    Ms. Goodwin. We see the levels of recidivism when young 
people especially are going through the criminal justice or the 
juvenile justice system.
    But I just also want to put a fine point on it. You said 
that there are several hearings that are happening today. There 
is a hearing today in a different just about school safety, 
right? That is actually talking about gun violence.
    Ms. Jackson Lee. And I was there.
    Ms. Goodwin. Yes, and we have these conversations that are 
just focused on what is happening in schools. But our babies 
have to leave schools, right? And the ones who look like us 
have to deal with trauma when they walk home, what they witness 
and what they see. And we have evidence that shows that 
children are harmed in numerous ways just whenever they witness 
violence, when they witness gun violence.
    They don't even have to be a part of it, but they are 
harmed in different ways. A couple of ways that I know, and 
this is coming from the Coalition to Stop Gun Violence, 
exposure to gun violence specifically with children, post 
traumatic stress disorder, antisocial behavior, depression, 
stunted cognitive and emotional development, risky alcohol and 
substance abuse, and then high-risk behaviors whenever it 
actually comes to firearms.
    And so we see these cycles of violence, but I think one 
thing that will be very helpful is not to silo away these 
conversations, whether it is in this body or outside of this 
body, because we know that there are ways that, you know, stop 
a bullet, but we need to make sure that we are figuring out why 
people are picking up guns in the first place and not just be 
thinking about the legality of guns as well.
    Ms. Bass. Thank you.
    Ms. Jackson Lee. Let me thank the witnesses. I thank the 
chairwoman for her----
    Ms. Bass. Absolutely. And I hope that this is the beginning 
of a discussion. I think that we all, from all of the witnesses 
today, understand that it really is not rocket science to 
figure out how to address these problems. There is tons of 
research. We know what to do to address the root causes.
    And we also know of programs that have successfully 
addressed the problem, and I think we have examples of those 
programs that are with us today. It is my hope, and I will ask 
the chairman, if we can--the chairman and the ranking member if 
we can follow this up, if we can visit some of the programs so 
that we can really look at how we support a comprehensive 
solution.
    And I think we saw today that today was not the point to 
just look at one aspect of a solution, but to look at 
communities in their totality and understand that communities 
have the capacity to address the problems. They just need the 
resources.
    And with that, we are adjourned.
    [Whereupon, at 2:16 p.m., the subcommittee was adjourned.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
 
</pre></body></html>
